<html>
<title> - PUTTING PEOPLE FIRST: A WAY FORWARD FOR THE HOMELAND SECURITY WORKFORCE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
PUTTING PEOPLE FIRST: A WAY FORWARD FOR THE HOMELAND SECURITY WORKFORCE

=======================================================================


                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                                                                         

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 5, 2009

                               __________

                            Serial No. 111-4

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
54-473                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON-LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. Lanier Avant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Conner, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             GUS M. BILIRAKIS, Florida
BILL PASCRELL, Jr, New Jersey        ANH ``JOSEPH'' CAO, Louisiana
AL GREEN, Texas                      DANIEL E. LUNGREN, California
MARY JO KILROY, Ohio                 PETER T. KING, New York, (ex 
BENNIE G. THOMPSON, Mississippi,     officio)
(ex officio)

                     Tamla T. Scott, Staff Director

                       Carla Zamudio-Dolan, Clerk

                    Michael Russell, Senior Counsel

               Kerry Kinirons, Minority Subcommittee Lead

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  from the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Gus M. Bilirakis, a Representative in Congress from 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, Chairman, Committee on Homeland 
  Security.......................................................    68
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey...................................    70

                               Witnesses

Ms. Carol A. Bonosaro, President, Senior Executives Assocation:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52
Mr. John Gage, National President, American Federaltion Treasury 
  Employees, AFL-CIO:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42
Ms. Colleen M. Kelley, National President, National Treasury 
  Employees Union:
  Oral Statement.................................................    31
  Preapred Statement.............................................    33
Mr. Max Steir, President and CEO, Partnership for Public Service:
  Oral Statement.................................................    57
  Prepared Statement.............................................    59

                             For the Record
                   Material submitted for the Record

2008 Federal Human Capital Survey................................     4
Breakdown of Components Covered by Title 5.......................    70
National Academy of Public Administration:
  Prepared Statement.............................................    77

                                Appendix

Questions and Responses:
  Responses from Ms. Colleen M. Kelley...........................    81


PUTTING PEOPLE FIRST: A WAY FORWARD FOR THE HOMELAND SECURITY WORKFORCE

                              ----------                              


                        Thursday, March 5, 2009

             U.S. House of Representatives,
        Subcommittee on Management, Investigations,
                                     and Oversight,
                            Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Christopher Carney 
[chairman of the subcommittee] presiding.
    Present: Representatives Carney, Thompson, Pascrell, Green, 
and Bilirakis.
    Mr. Carney. [Presiding.] The subcommittee will come to 
order. The subcommittee is meeting today to receive testimony 
on ``Putting People First: A Way Forward for the Department of 
Homeland Security Workforce.''
    I would like to thank everyone for joining us today. It is 
the first of many M,I, and O hearings that we will hold during 
the 111th Congress. I am looking forward to another year of 
productive oversight and also looking forward to working with 
our new ranking member, Congressman Bilirakis of Florida.
    During the 110th Congress, I had the good fortune to 
develop a very productive working relationship with Congressman 
Rogers of Alabama. I am sure that Ranking Member Bilirakis and 
I will work in a similarly productive, bipartisan manner.
    Last Congress, the subcommittee traveled to my home state 
of Pennsylvania to look at the threat posed by agro-terror, and 
we also traveled to Mr. Rogers' district in Alabama to examine 
innovative training methods for first responders from across 
the nation.
    Similarly, this subcommittee will continue to explore how 
homeland security issues impact our local communities outside 
the Beltway. That said, I look forward to learning about some 
of the specific homeland security-related matters facing the 
state of Florida.
    Today, however, we are here to learn about an issue vital 
to the Department of Homeland Security's operations, the 
management of the Department's large workforce.
    It is my hope that by choosing this subject as the 
subcommittee's first hearing of the 111th Congress, the 
committee is making it clear that the Department must put 
people first.
    Instead of just disparaging some of the flawed management, 
as so many DHS critics like to do, this hearing gives us an 
opportunity to take another look at DHS employees and hopefully 
hear some innovative ways for the Department to deal with and 
manage some of the challenges the workforce faces.
    In the near future, we will bring the Department's chief 
human capital officer before the subcommittee to provide us 
feedback on the exchange of ideas we will have here today and 
to discuss future plans, policies and implementation strategies 
for the Department's workforce.
    The Department currently employs over 223,000 people, 
performing varied jobs, from law enforcement to intelligence to 
analysis to even pilots, and countless jobs in between. It is 
easy to see how a complex set of workforce issues has 
developed.
    For all of the criticisms of the Department since its 
inception, it has successfully succeeded in protecting our 
country from numerous threats, with only one glaring exception, 
and that is Katrina. But the Department has always struggled 
with employee satisfaction and morale.
    Yesterday, Ranking Member Bilirakis and I were pleased to 
bring to the floor a resolution honoring the Department's 
workforce, and today, we seek solutions on how the Department 
can improve its personnel systems.
    In many ways, this vital oversight again honors the 
contributions of the DHS rank and file as we seek to improve 
their working environment and look for ways to improve morale.
    In 2004, 2006 and 2008, Federal Human Capital Surveys, the 
Office of Personnel Management, found that the Department 
ranked among the lowest cabinet departments and independent 
agencies in employee morale.
    In the 2008 OPM survey, 35 percent of the employees said 
they have insufficient resources to do their jobs, 35 percent 
said they did not get enough information from management, and 
34 percent disagreed that awards are based on how well people 
do their jobs.
    These statistics are alarming, to say the least. I think we 
can all agree that measures must be taken to correct them, and 
the sooner, the better.
    I thank the witnesses for their participation in today's 
hearing, and I look forward to hearing from Ms. Kelley, Mr. 
Gage, Ms. Bonosaro and Mr. Stier.
    The chair now recognizes the ranking member of the 
subcommittee, the gentleman from Florida, Mr. Bilirakis, for 
his opening statement.
    [The statement of Ms. Carney follows:]

    Prepared Opening Statement of Christopher P. Carney, Chairman, 
       Subcommittee on Management, Investigations, and Oversight

    I'd like to thank everyone for joining us today for the first of 
many MI&O hearings we will conduct during 111th Congress. I'm looking 
forward to another year of productive oversight. I also look forward to 
working with our new Ranking Member, Congressman Bilirakis of Florida.
    During the 1110th Congress I had the good fortune to develop a very 
productive working relationship with Congressman Rogers of Alabama. I'm 
sure that Ranking Member Bilirakis and I will work in the Sam 
bipartisan manner.
    Last Congress, this subcommittee travelled to my home state of 
Pennsylvania to examine the agro-terror threat, and we also travelled 
to Mr. Rogers' district in Alabama to see innovative training methods 
for first responders from across the nation. In the same fashion, this 
Subcommittee will continue to explore how homeland security issues 
impact local communities outside of Washington, and I look forward to 
learning about some of the specific homeland security-related matters 
facing the wonderful state of Florida.
    Today, however, we are examining an issue that is vital to the 
Department of Homeland Security's operations and that is the management 
of the Department's large workforce. We hope that by choosing this 
subject as this Subcommittee's first hearing of the 111th Congress we 
are making it clear that the Department must put its people first.
    Instead of just knocking the flawed management as so many of DHS' 
critics like to do, this hearing gives us an opportunity to take 
another look at DHS employees and hopefully hear some innovative ways 
for the Department to deal with and manage some of the challenges its 
workforce faces. In the near future, we will bring the Department's 
Chief Human Capital Officer before the Subcommittee to provide feedback 
on the exchange of ideas we have her today, and to discuss plans, 
policies and implementation strategies for the Department's workforce.
    While DoD's creation is often cited as a similar challenge, the 
creation of DHS is really unprecedented in our nation's history. The 
Department currently employs over 223,000 employees, performing varied 
jobs. From law enforcement officer to intelligence analyst to pilot, 
and countless jobs in between, it's easy to see how a complex set of 
workforce issues has developed. For all of the criticisms of the 
Department, since its inception it has, for the most part, successfully 
succeeded in protecting our country from numerous threats. But the 
Department has always struggled with employee morale and satisfaction.
    Yesterday, Ranking Member Bilirakis and I were pleased to bring to 
the House floor a resolution honoring the Department's workforce. 
Today, we seek solutions on how the Department can improve its 
personnel systems. In many ways, this vital oversight, again honors 
their contributions as we seek to improve their working environment and 
look for ways to improve employee morale.
    In both its 2004 and 2006 Federal Human Capital Surveys, the Office 
of Personnel Management found that the Department ranked among the 
lowest cabinet departments and independent agencies in employee morale. 
In the 2006 OPM survey, 43% of employees said they have insufficient 
resources to do their jobs, 41% percent said they do not get enough 
information from management and 43% disagreed that awards are based on 
how well employees do their jobs. These statistics are alarming to say 
the least. I think we can all agree that measures must be taken to 
correct them and correct them sooner rather than later.
    I thank the witnesses for their participation in this hearing today 
and I look forward to hearing from Ms. Kelly, Mr. Gage, Ms. Bonosaro 
and Mr. Stier.

    Mr. Bilirakis. Thank you, Mr. Chairman.
    Let me start by saying that I am proud to serve as ranking 
member for the Management, Investigations, and Oversight 
Subcommittee.
    The establishment of the Department of Homeland Security 
marked the largest government reorganization since the 
Department of Defense was created, consolidating 22 different 
agencies.
    The Department has made great strides in efforts to create 
a unified organization, but more work needs to be done to 
produce the kind of Department envisioned by the Homeland 
Security Act.
    This subcommittee has an important role to play in the 
evolution of the Department both as a supporter, but also as an 
overseer to ensure that the Department is working in the most 
efficient and effective way possible.
    Chairman Carney and I look forward to working with you.
    Of course, I also look forward to working with you, Mr. 
Chairman, in these efforts.
    I am pleased that the subcommittee's first hearing is 
focused on personnel issues at the Department. The Department 
is home to 223,000 employees, as Chairman Carney said, who are 
some of the most dedicated employees in our government.
    That is why I introduced, along with Chairman Carney, House 
Resolution 195, which honors the employees of the Department 
for the work they do every day to ensure that our nation is 
secure.
    I thank Chairman Carney for joining me again in introducing 
this resolution. And I am pleased to report that the resolution 
passed yesterday with unanimous support.
    My district is home to many of the Department's employees, 
including Transportation Security officers, Customs and Border 
Protection Officers, Immigration and Customs Enforcement 
Agents, and Coast Guardsmen.
    These hard-working individuals, along with their colleagues 
across the nation, deserve the best Department, the best that 
the Department has to offer. And I hope today's hearing was 
shed light on some initiatives the Department could put in 
place that will better serve its employees.
    In 2006 the Department of Homeland Security ranked nearly 
last in the Office of Personnel Management's Federal Human 
Capital Survey, showing overwhelming employee dissatisfaction 
and low morale.
    Since that time, the Department, under former Secretary 
Chertoff's leadership, has worked to address these issues, and 
I am pleased to see that these efforts are paying off.
    The Office of Personnel Management recently released the 
results of the 2008 Federal Human Capital Survey, and I ask 
unanimous consent, Mr. Chairman, to insert the results of the 
survey in the record.
    Mr. Carney. Without objection, so ordered.

    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
2008 Federal Human Capital Survey (FHCS)
Introduction
<bullet>Agencies are required to conduct an Annual Employee Survey 
(AES).
        The 2006 and 2008 AES was in the form of the FHCS. The 2007 AES 
        was in the form of the DHS Employee Survey.
<bullet> These surveys enable DHS to:
                <bullet> Learn employees' attitudes
                <bullet> Guide human capital management strategies and 
                practices
                <bullet> Provide human capital metrics within the Human 
                Capital Assessment and Accountability Framework (HCAAF) 
                in the following four indices:
                        <bullet> Leadership and Knowledge Management
                        <bullet> Results-Oriented Performance Culture
                        Talent Management
                        Job Satisfaction
The 2006 and 2008 consisted of 85 total items; the 2007 DHS Employee 
Survey consisted of 66 total items; 40 items are identical in each 
survey and are prescribed by OPM.
A total of 212,223 federal employees responded; 9,550 were DHS 
employees (a 49.8% DHS response rate).

2008 Federal Human Capital Survey (FHCS) Highlights of the DHS Results
        <bullet> Results showed an upward trend in positive responses 
        from the 2006 survey (72 of 74 items increased) across all four 
        indices.
        <bullet> Overall, DHS employees continue to like the work they 
        do, strongly believe that the work they do is important, know 
        how their work relates to the agency's goals and priorities, 
        work together to get their jobs done and are committed to their 
        work.
        <bullet> Improvement is still needed in recognizing high 
        performers, rewarding creativity and innovation, providing 
        personal empowerment with respect to work processes, ensuring 
        that pay raises and promotions are based on merit, and dealing 
        with poor performers.

2008 Federal Human Capital Survey
Items with the most significant increase from the 2007 AES
        <bullet> Q.36: Managers/supervisors/team leaders work well with 
        employees of different backgrounds (+ 7%)
        <bullet> Q.41: Managers review and evaluate the organization's 
        progress toward meeting its goals and objectives (+ 9%)
        <bullet> Q.55: How satisfied are you with your involvement in 
        decisions that affect your work? (+ 13%)
        <bullet> Q.57: How satisfied are you with the recognition you 
        receive for doing a good job? (+ 7%)
        <bullet> Q.62: Considering everything, how satisfied are you 
        with your pay? (+ 8%)
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
 Next Steps: Using Survey Results to Focus Discussion Sessions on Key 
                    Drivers of Employee Satisfaction
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Bilirakis. Thank you.
    The Department showed improvement in nearly every category 
of the survey, ranking in the top five of most improvement 
among the federal agencies. The largest increase came in the 
job satisfaction indices, evidencing a much-needed increase in 
employee morale.
    There is good news. It is great news. But more work needs 
to be done. The Department will now use the results of this 
survey to further improve working conditions at the Department 
and within its components.
    I will say that I am disappointed that the Department was 
not invited to testify here today. I am interested in learning 
more about its plans to improve and support the Department's 
workforce.
    And I hope that we will have a follow-up hearing, Mr. 
Chairman, on this issue in the future.
    That said, I look forward to working with the Department 
and Chairman Carney to address the concerns of the employees, 
improve morale and foster a one-DHS culture. The Department's 
employees deserve nothing less.
    With that, I would like to welcome our witnesses here 
today, and I look forward to their testimony.
    Thank you, Mr. Chairman. I really appreciate it.
    Mr. Carney. Thank you, Mr. Bilirakis.
    Other members of the subcommittee I reminded that under 
committee rules, opening statements may be submitted for the 
record.
    Our first witness is Colleen Kelley, president of the 
National Treasury Employees Union, NTEU. NTEU represents over 
150,000 federal employees, including 24,000 who work at the 
Department of Homeland Security.
    A certified public accountant, Ms. Kelley began her career 
as an IRS revenue agent. An NTEU member since 1974, Ms. Kelley 
has served in various NTEU chapter leadership positions, 
including president of NTEU Chapter 34. She was first elected 
president of the national organization August of 1999 and was 
reelected to a third term in August of 2008.
    Welcome.
    Our second witness is John Gage, president of the American 
Federation of Government Employees, AFL-CIO. AFGE represents 
more than 600,000 federal employees, including 60,000 who work 
at the Department of Homeland Security.
    Mr. Gage was elected as AFGE's national president in 2003. 
Prior to this, he served more than 20 years as president of the 
AFGE Local 1923 and as national vice president of AFGE's fourth 
district.
    Mr. Gage began working for the federal government as a 
disability examiner for the Social Security Administration in 
1974.
    Our third witness is Carol Bonosaro, president of the 
Senior Executives Association. The Senior Executives 
Association has nearly 3,000 members that represent Cabinet-
level departments, as well as 44 administrative and independent 
agencies, commissions and corporations.
    Ms. Bonosaro was herself a senior executive until her 
retirement from federal service in 1986 to become SEA's full-
time president. Ms. Bonosaro began her 25-year government 
career at the Bureau of the Budget, now the Office of 
Management and Budget, as a management intern.
    At 33, she became a super-grade executive at the U.S. 
Commission on Civil Rights. Ms. Bonosaro directed the 
commission's congressional and public affairs program from 1980 
to 1986, when she retired from the Senior Executive Service.
    Our final witness is Mr. Max Stier, president and CEO of 
the Partnership for Public Service. The Partnership for Public 
Service seeks to revitalize the federal civil service by making 
the government and employer of choice for talented Americans.
    Mr. Stier has worked previously in all three branches of 
the federal government, including clerking for the Supreme 
Court Justice David Souter. His professional experience also 
includes practicing law at the firm of Williams & Connolly.
    Most recently, Mr. Stier was deputy general counsel for 
litigation with the Department of Housing and Urban 
Development. His career in government service began here on 
Capitol Hill, when he served as a personal staff of former 
Representative Jim Leach of Iowa.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Ms. Kelley.

 STATEMENT OF COLLEEN M. KELLEY, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Carney, Ranking 
Member Bilirakis and committee members, for the opportunity to 
be here today and to testify on the current state of affairs 
regarding personnel practices and workforce challenges at the 
Department of Homeland Security.
    I would also like to thank both of you, Chairman Carney and 
Ranking Member Bilirakis, for the H.R. 195 recognition to 
Homeland Security employees, recognition that they earn every 
day in their duty to our country.
    As president of NTEU, I had the honor of representing over 
150,000 federal employees, and 24,000 of those are in the 
Department Of Homeland Security, so what I would like to do is 
to highlight the main points of my written testimony.
    Let me start with the Transportation Security 
Administration and also mention that NTEU has TSOs from around 
the country here in D.C. this week, including from Florida and 
Pennsylvania.
    Congress' intention in federalizing the screening workforce 
at TSA was to replace a poorly trained, minimum wage, private 
contract civilian workforce with professional, highly trained, 
security screening officers.
    The goal of providing screeners with adequate pay, benefits 
and training, and thereby creating a professional and dedicated 
TSO workforce, has been undermined by ineffective management 
and the denial of most basic workplace rights.
    TSA has the dubious distinction of having the lowest morale 
of all federal agencies. It has the highest attrition rate and 
the highest injury rate. TSA employees face a hostile work 
environment. Our union officers have been demoted or moved to 
less desirable areas for trying to get employee disputes 
resolved.
    TSOs are forced to take annual leave when they are clearly 
eligible for family and medical leave. Jobs are not posted. 
They are filled based on favoritism or who you know.
    TSOs are routinely at the airport 11 to 14 hours a day and 
get paid for only 8 hours due to split shift assignments. 
Staffing levels at some airports are so low that TSOs are 
working extra shifts, not getting breaks, and working on their 
days off.
    I believe the new administration will address these 
problems, those that are the remnants of the Bush legacy, but 
the law needs to be changed, and this is an agency that needs 
to have the voices of its employees heard.
    In the 110th Congress, both the House and the Senate voted 
to repeal the section of the Aviation Transportation Security 
Act that allowed management to deny collective bargaining 
rights to its employees.
    Unfortunately, that provision did not survive in the final 
version of the 9/11 Commission bill that did become law. NTEU 
strongly supports providing collective bargaining rights to 
TSOs and believes it will improve morale and performance, as 
well as to help ensure that employees are not retaliated 
against if they report waste, fraud or abuse.
    Rather than inhibit management, collective bargaining 
agreements set procedures for work assignments and duties that 
lead to stability in the workplace. The result is a trained and 
committed workforce that enhances the nation's security.
    TSA's personnel management programs, including its unique 
pay system, have been massive failures. Under TSA's pay-for-
performance system, known as PASS, employees have no basis to 
accurately predict their salaries from year to year. If the TSO 
fails a test, they are not told why.
    Every year when the PASS payouts come, our office is 
flooded with calls from TSOs who are confused and disappointed 
with their scores and with their payouts.
    The PASS system is not fair. It is not credible, and it is 
not transparent. It should be eliminated, and TSOs should be 
put under the general pay schedule, the general system pay 
schedule, which covers most other federal employees, including 
most of DHS.
    Now, at the Bureau of Customs and Border Protection, we now 
have over 18,000 CBP officers covering our 327 ports of entry. 
NTEU believes that at least 22,000 CBP officers are needed to 
have a robust and fully staffed force at our ports of entry.
    NTEU's CBP members have told us that CBP officer cross-
training and on-the-job training is woefully inadequate. In 
addition, staffing shortages force managers to choose between 
performing port operations and providing ongoing and important 
training.
    The knowledge and the skills required to perform the 
expanded inspection tasks under their One Face at the Border 
initiative have been diluted, while at the same time increasing 
the workload of CBP officers.
    CBP officers are becoming generalists without ever 
developing the specialized skill set that they had as legacy 
inspectors. We believe this jeopardizes the nation's security.
    NTEU believes this initiative has failed to integrate the 
different port functions it sought to make interchangeable, 
because they are not interchangeable. And I ask this committee 
to review that initiative.
    I would like to thank the committee for its great work in 
the last Congress to finally recognize CBPOs as law enforcement 
officers and to grant them an enhanced law enforcement 
retirement.
    NTEU asks that this Congress extend that same law 
enforcement benefit to CBP's property specialists and to 
agriculture specialists, as was included in the Senate's 2009 
DHS authorization bill. This action would result in a more 
unified CBP workforce and increase employee morale.
    And DHS employees are very, very proud of the work they do, 
keeping our country free from terrorism, our neighborhoods safe 
from drugs, and our economy and transportation systems safe 
from illegal trade.
    Again, I would like to thank the committee for holding this 
hearing and for the opportunity to be here to recognize them 
and speak on their behalf. Thank you.
    [The statement of Ms. Kelley follows:]

                Prepared Statement of Colleen M. Kelley

    Chairman Carney, Ranking Member Bilirakis, I would like to thank 
the subcommittee for the opportunity to testify on the current state of 
affairs regarding personnel practices and workforce challenges at the 
Department of Homeland Security (DHS). As President of the National 
Treasury Employees Union (NTEU), I have the honor of representing over 
150,000 federal employees, 24,000 of whom are Customs and Border 
Protection (CBP) employees at the Department of Homeland Security.

DHS PERSONNEL SYSTEM AUTHORIZED BY TITLE 5, CHAPTER 97
    When Congress passed the Homeland Security Act in 2002 (HSA), it 
granted the new department very broad discretion to create new 
personnel rules. It basically said that DHS could come up with new 
systems as long as employees were treated fairly and continued to be 
able to organize and bargain collectively.
    It was unfortunate that after two years of ``collaborating``with 
DHS and OPM on a new personnel system for DHS employees, NTEU was 
extremely disappointed that the final regulations fell woefully short 
on a number of the Homeland Security Act's (HSA) statutory mandates. 
The most important being the mandates that DHS employees may, 
``organize, bargain collectively, and participate through labor 
organizations of their own choosing in decisions which affect them,'' 
(5 U.S.C. 9701(b)(4) as well as the mandate that any changes to the 
current adverse action procedures must the fair, efficient and 
expeditious resolutions of matters involving the employees of the 
Department.''(5 U.S.C. 9701(f)(2)(C)).
    Because the final personnel regulations failed to meet the 
statutory requirements of the HSA, NTEU, along with other federal 
employee unions, filed a lawsuit in Federal court. On August 12,2005, 
the federal district court ruled the labor-management relations and 
appeals portions of the DHS final personnel regulations illegal and 
enjoined their implementation by DHS. DHS appealed the district court's 
decision to the U.S. Court of Appeals for the District of Columbia 
Circuit. In June 2006, the Appellate Court upheld the lower court 
decision and DHS declined to appeal the ruling to the Supreme Court.
    Much to NTEU's consternation, on March 7,2007, DHS announced that 
it would put into effect portions of its compromised personnel system, 
formerly known as MaxHR, but now called the Human Capital Operations 
Plan. NTEU was very grateful that on March 28,2007, the House Homeland 
Security Committee acted. The Committee approved an amendment offered 
by Subcommittee Chairman Carney to the fiscal year 2008 DHS 
Authorization bill that repeals the DHS Human Resources Management 
System. H.R. 1684, the DHS Authorization legislation was approved by 
the House of Representatives on May, 11,2007, but was not considered by 
the Senate.
    Despite Congress' clear intent to stop implementation of the failed 
DHS Human Resources Management System, DHS continued to persist in 
implementing these compromised personnel regulations. Finally, Congress 
approved a fiscal year 2009 DHS Appropriations bill that prohibits the 
department from using any funds to implement a new personnel system for 
rank and file employees. Because of this Congressional prohibition, DHS 
finally abandoned all efforts to implement all regulations promulgated 
under Title 5, Chapter 97 in October 2008. The House has voted once 
already to repeal the authorization of Title 5, Chapter 97. NTEU urges 
Congress to enact the Chapter 97 repeal this year.

TRANSPORTATION SECURITY ADMINISTRATION
    The Aviation and Transportation Security Act (ATSA), enacted in 
November 2001, removed screening responsibility from air carriers and 
the private sector contractors who conducted screening for them and 
placed this responsibility with the Transportation Security 
Administration (TSA). As a result, TSA hired and deployed about 55,000 
federal passenger and baggage Transportation Security Officers (TSO)--
formerly known as screeners--to more than 400 airports nationwide based 
largely on the number of screeners the air carrier contractors had 
employed. Since August 2002, TSA has been prohibited by statute from 
exceeding 45,000 full-time equivalent positions available for 
screening.
    Congress' intention in federalizing the screening workforce was to 
replace a poorly trained, minimum-wage private contract screening 
workforce with professional, highly trained security screening 
officers. Congress, however, included in ATSA, Section 111(d) that 
codified as a note to 49 U.S.C. 44935, the following:
    Notwithstanding any other provision of the law, the Under Secretary 
of Transportation for Security may employ, appoint, discipline, 
terminate, and fix the compensation, terms and conditions of employment 
of Federal service for such a number of individuals as the Under 
Secretary determines to be necessary to carry out the screening 
function of the Under Secretary under section 44901 of title 49, United 
States Code. The Under Secretary shall establish levels of compensation 
and other benefits for individuals so employed.
    This section permitted the establishment of a federal personnel 
management system that is unique to TSOs. The Federal Labor Relations 
Authority construed Section 111(d) as granting unfettered discretion to 
TSA to determine the terms and conditions of employment for federal 
screener personnel. Accordingly, a directive issued by then Under 
Secretary James Loy on January 8,2003 barred screeners from engaging in 
collective bargaining.
    The goal of providing screeners with adequate pay, benefits and 
training and thereby creating a professional and dedicated TSO 
workforce has been undermined by capricious and arbitrary management 
and the denial of the most basic workplace rights.
    To date, TSA's basic management programs have been massive 
failures. The training and certification program, performance appraisal 
system, and health and safety programs all lack accountability and 
therefore lack credibility with employees. The Transportation Security 
Officers, who put themselves on the line every day, at every airport, 
deserve better than what they've endured so far. TSA is an agency with 
the lowest pay in the government. Not surprisingly, it also has the 
lowest morale. Lack of oversight and accountability has resulted in one 
of the highest voluntary attrition rates in the entire federal 
government as well as the highest workplace injury rates.

Pay for Performance
    Under TSA's pay-for-performance system, known as PASS, employees 
have no basis to accurately predict their salaries from year to year. 
They have no way of knowing how much of an annual increase they will 
receive, or whether they will receive any annual increase at all. Every 
year, the amount of points required to receive a merit increase change, 
as does the percentage of each category. Scores are routinely changed 
on the whim of management. The PASS system relies almost entirely on 
the integrity, work ethic and writing ability of the supervisor who 
gives the points.
    PASS is an example of the ``worst of all worlds'' kind of system -
not a statutorily set system like the GS one, and no collective 
bargaining over pay, nor over anything. So, has this pay-for-
performance system aided in recruitment and retention or motivation? It 
absolutely has not. It is a major contributor to the fact that TSA has 
the highest turnover rate in the federal government. Has it motivated 
employees to better achieve the agency mission? Certainly not. 
Employees at TSA are struggling to make ends meet with an average 
salary of $30,000, uncertain work conditions and no knowledge as to 
whether they will receive a pay raise or even what the expectations are 
to get one, under the current system. While they do a remarkable job 
with insufficient training and feedback, it is hard for them to focus 
on the larger mission goals.
    Last fall, was awarded a contract to administer human resources 
systems at TSA. It already plays a large part in the inept PASS system. 
While airport screeners in charge of vital security needs rarely make 
enough to afford health insurance, a contractor with an abysmal record 
of deeds accomplished at the same agency was awarded a new $1.2 billion 
contract. This money would be much better spent on increasing staffing 
and pay for TSOs.
    PASS is in disarray. The imagery used for training, when it 
actually occurs, is faulty. If a TSO fails a test, they are not told 
why. It doesn't measure the appropriate skills. If you do fail, there 
is no training to improve your skills. Still, your merit increase is 
based on these scores, scores that can change between the time the 
tester hands them in to a supervisor, and the supervisor records them. 
Part of your PASS score is based on duties''. The supervisor decides 
who gets these duties, adding another layer of favoritism to the 
personnel system. Every year, when the PASS payouts come out, our 
office is flooded with calls from TSOs confused and disappointed with 
their scores.
    With roughly 8,000 of the approximately 40,000 member TSA workforce 
leaving their jobs each year, TSA is incurring astronomical and 
unnecessary costs of training, recruiting and hiring and lost 
productivity. This critical workforce is in flux and I see no advantage 
to experimenting further with their pay. The PASS system is not fair, 
credible or transparent. It is not achieving the success to justify it, 
and it is a major contributing factor to the agency's double-digit 
attrition. The PASS system should be eliminated and TSOs should be put 
under the General Schedule pay system.
The General Schedule
    Critics of the General Schedule are often confused about the very 
nature of that system, or sometimes, as in the Partnership for Public 
Service's report on ``Elevating our Federal Workforce'', when they 
think they're criticizing the GS, they're really complaining about 
other things--federal managers who won't manage, pay that's too low, 
difficulty in hiring. These are not GS problems, nor are they problems 
that can be fixed with a new performance management system.
    I am a big believer in setting meaningful goals and then figuring 
out how to reach those goals. It seems to me that we need to step back 
in this discussion about pay systems and personnel systems and ask--
what are our goals? I have a couple: (1) Does it help recruit and 
retain the best people for the jobs? And, (2) Does it help motivate 
employees to better achieve the agency mission? Agencies that follow 
the General Schedule have been successful in both these goals. Agencies 
that have pay-for-performance systems have not.
    The General Schedule is a structured system. It has rules, 
standards and evaluations which must be written. It has both merit and 
market components--with grade and career ladder promotions subject to 
merit standards. There is limited ability for favoritism, 
discrimination or other non-merit determinations to come into play.
    But there is also flexibility. Non-performers can be denied merit 
pay increases and outstanding performers can be given many rewards, 
including quality step increases, additional leave, and retention and 
recruitment bonuses. Yet we see a pattern of managers' inability to 
follow the rules and work within the GS system. If managers currently 
have trouble with the GS system, it does not make sense to go to a more 
subjective system. The GS system is a performance-based system that 
works. Until we see actual success stories of pay-for-performance 
systems, and there have been none in any of agencies represented by 
NTEU, NTEU will continue to oppose them.
    For those who argue that raises are automatic within the GS system 
and say the only thing that counts is being there, I take issue. An 
employee's supervisor must certify that the employee is performing the 
job up to standard. If not, the employee's step increase can be 
withheld and disciplinary action can follow. If there's a problem here, 
it's that the supervisor is not doing his or her job. Can we expect 
them to do a better job with a much greater task, the kind of task that 
is involved in each and every one of the pay-for-performance systems 
presently in the government? It took a very long time to build a non-
partisan, professional civil service that is envied around the world. 
There has been no evidence so far that it needs to be changed. Rather 
than spend money and precious resources fixing what isn't broken, I 
suggest we put that money and time into developing a better hiring plan 
for the federal government and more training for managers to take 
advantage of what already exists.

Collective Bargaining Rights for TSOs
    In the 110th Congress, both the House and Senate recognized the 
failings of the TSA personnel system that prohibits collective 
bargaining and voted to repeal Section 111(d) of ATSA. Unfortunately, 
the ATSA repeal provision did not make it into the final version of the 
9/11 bill. Reversing this unequal treatment of TSOs will help restore 
morale and strengthen mission and personnel dedication at the 
Department of Homeland Security.
    There is little dispute that TSA is a hostile work environment. Our 
union officers have been demoted or moved to less-traveled areas for 
trying to get disputes resolved. People are injured on the job and told 
to stay home or even told to find a different place to work. TSOs are 
forced to take annual leave when they clearly are eligible for Family 
and Medical Leave Act leave. Jobs are not posted; they are filled by 
TSOs friendly to management. TSOs routinely are at the airport 11 to 14 
hours a day, but get paid for 8. Staffing levels at some airports are 
so low that TSOs are working extra shifts, not getting breaks, and 
working on their days off.
    Concerns voiced by the former administration, that collective 
bargaining would limit management flexibility at TSA have been totally 
discredited by the record of the organized workforce at other DHS 
bureaus and agencies. Rather than inhibit management, collective 
bargaining agreements set procedures for work assignments and duties 
that lead to stability in the workplace. The result, then, is a trained 
and committed workforce to enhance the nation's protection.
    In conclusion, the inherent arbitrariness of the PASS system can 
only be solved by moving TSOs to the General Schedule with full 
bargaining rights as enjoyed by their fellow civil servants.

IMPEDIMENTS TO MISSION ACCOMPLISHMENT
    The second part of my testimony addresses the previous 
administration's DHS staffing and personnel policies that have 
deleteriously affected employee morale and threaten the agency's 
ability to successfully meet its critical missions.

ONE FACE AT THE BORDER INITIATIVE
    As part of the establishment of the Bureau of U.S. Customs and 
Border Protection (CBP) in March 2003, DHS brought together employees 
from three departments of government--Treasury, Justice and Agriculture 
to operate at the 327 ports of entry. On September 2, 2003, CBP 
announced the One Face at the Border initiative. The initiative was 
designed to eliminate the pre-9/11 separation of immigration, customs, 
and agriculture functions at US land, sea and air ports of entry. 
Inside CBP, three different inspector occupations--Customs Inspector, 
Immigration Inspector and Agriculture Inspector were combined into a 
single inspectional position--the CBP Officer.
    The priority mission of the CBP Officer is to prevent terrorists 
and terrorist weapons from entering the U.S., while simultaneously 
facilitating legitimate trade and travel--as well as upholding the laws 
and performing the traditional missions of the three legacy agencies, 
the U.S. Customs Service, the Immigration and Naturalization Service 
(INS) and the Animal, Plant and Health Inspection Service (APHIS).
    This change in job description and job duties established by the 
One Face at the Border initiative resulted in the Herculean task of 
training, retraining and cross training over 18,000 newly created CBP 
Officers. It became clear after several months that Agriculture 
Specialists job duties and background was significantly unique to 
establish a CBP Agriculture Specialist job series 401, separate from 
the CBP Officer job series 1895.
    CBP saw its One Face at the Border initiative as a ``force 
multiplier``a means to ``increase management flexibility``without 
increasing staffing levels. According to CBP, ``there will be no extra 
cost to taxpayers. CBP plans to manage this initiative within existing 
resources. The ability to combine these three inspectional disciplines 
and to cross-train frontline officers will allow CBP to more easily 
handle projected workload increases and stay within present budgeted 
levels.'' This has not been the case. The knowledge and skills required 
to perform the expanded inspectional tasks under the One Face at the 
Border initiative have been diluted while at the same time increasing 
the workload of the CBP Officer. The CBP Officer is becoming a 
generalist, rotating from seaport cargo inspection to land port vehicle 
processing to airport passenger processing without ever developing the 
specialized skill set that they had as legacy inspectors, and further 
undermining the nation's security.

CBP STAFFING SHORTAGES
    In 2006, Congress requested that the Government Accountability 
Office (GAO) evaluate the One Face at the Border initiative and its 
impact on legacy customs, immigration and agricultural inspection and 
workload. GAO conducted its audit from August 2006 through September 
2007 and issued its public report, Border Security: Despite Progress, 
Weaknesses in Traveler Inspections Exist at Our Nation's Ports of Entry 
(GAO-08-219), on November 5,2007.

    The conclusions of this report echo what NTEU has been saying for 
years:
        <bullet> CBP needs several thousand additional CBP Officers and 
        Agriculture Specialists at its ports of entry.
        <bullet> Not having sufficient staff contributes to morale 
        problems, fatigue, and safety issues for CBP Officers.
        <bullet> Staffing challenges force ports to choose between port 
        operations and providing training.
        <bullet> CBO's onboard staffing level is below budgeted levels, 
        partly due to high attrition, with ports of entry losing 
        officers faster than they can hire replacements.
        According to GAO, At seven of the eight major ports we visited, 
        officers and managers told us that not having sufficient staff 
        contributes to morale problems, fatigue, lack of backup support 
        and safety issues when officers inspect travelers--increasing 
        the potential that terrorists, inadmissible travelers and 
        illicit goods could enter the country. (See GAO-08-219, page 7)
        Due to staffing shortages, ports of entry rely on overtime to 
        accomplish their inspection responsibilities. Double shifts can 
        result in officer fatigue. . .officer fatigue caused by 
        excessive overtime negatively affected inspections at ports of 
        entry. On occasion, officers said they are called upon to work 
        16-hour shifts, spending long stints in primary passenger 
        processing lanes in order to keep lanes open, in part to 
        minimize traveler wait times. Further evidence of fatigue came 
        from officers who said that CBP officers call in sick due to 
        exhaustion, in part to avoid mandatory overtime, which in turn 
        exacerbates the staffing challenges faced by the ports. (See 
        GAO-08-219, page 33)
    According to CBP, CBP Officers have ``Twin Goals'' in doing their 
job--anti-terrorism and facilitating legitimate trade and travel. CBP's 
priority mission is preventing terrorists and terrorist weapons from 
entering the United States, while also facilitating the flow of 
legitimate trade and travel. CBP's emphasis on reducing wait times, 
however, without increasing staffing at the ports of entry creates a 
challenging work environment for the CBP Officer.
    On the one hand, CBP Officers are to fully perform their inspection 
duties, yet at all times they are made aware by management of wait 
times. In land port booths, wait times are clearly displayed. Primary 
inspections at land ports are expected to be conducted in less than one 
minute. Travelers routinely spend about 45 seconds at Canadian 
crossings during which CBP Officers have to determine if a person is a 
U.S. citizen or alien, and if alien, whether the alien is entitled to 
enter the U.S. At airports, all international arrivals are expected to 
be cleared within 45 minutes or a visual alert is displayed at 
headquarters and local management is notified. CBP's posts wait times 
at every land port and allow travelers to check airport wait times by 
location.
    The emphasis on primary passenger processing and reducing wait 
times results in limited staff available at secondary to perform 
vehicle, baggage and cargo inspections referred to them. NTEU has noted 
the diminution of secondary inspection in favor of passenger 
facilitation at primary since the creation of DHS.

CBP Agriculture Specialists
    In 2008, NTEU was certified as the labor union representative of 
CBP Agriculture Specialists as the result of an election to represent 
all Customs and Border Protection employees that had been consolidated 
into one bargaining unit by merging the port of entry inspection 
functions of Customs, INS and the Animal and Plant Inspection Service 
as part of DHS' One Face at the Border initiative.
    In order to assess CBP Officer and CBP Agriculture Specialists 
staffing needs, Congress, in its fiscal year 2007 DHS appropriations 
conference report, directed CBP to submit by January 23, 2007 a 
resource allocation model for current and future year staffing 
requirements. In July 2007, CBP provided GAO with the results of the 
staffing model.
    ``The model's results showed that CBP would need up to several 
thousand additional CBP officers and agricultural specialists at its 
ports of entry.'' (See GAO-08-219, page 31) CBP has determined that 
data from the staffing model are law enforcement sensitive and has not 
shared this data with NTEU.
    According to GAO, with the merger of the three agencies' inspection 
forces, there are now approximately 18,000 CBP Officers currently 
employed by CBP. Based on the expanded mission of CBP Officers, NTEU 
believes that at least 22,000 CBP Officers would be needed to have a 
robust and fully staffed force at our ports of entry.
    According to GAO-08-219 page 31, CBP' s staffing model ``showed 
that CBP would need up to several thousand additional CBP Officers and 
agriculture specialists at its ports of entry.'' And GAO testimony 
issued on October 3,2007 stated that, ``as of mid-August 2007, CBP had 
2,116 agriculture specialists on staff, compared with 3,154 specialists 
needed, according to staffing model.'' (See GAO-08-96T page 1 .) NTEU 
recommends that CBP hire additional CBP Agriculture Specialists to 
comply with its own staffing model.
    Congressional Appropriators added fiscal year 2009 funds to hire 
1,373 U.S. Customs and Border Protection Officers and CBP Agriculture 
Specialists at the ports of entry--an increase of 834 beyond those 
requested by the Bush Administration in its fiscal year 2009 budget. 
According to CBP February 2009 Snapshot summary of CBP facts and 
figures, CBP employs 19,726 CBP Officers and 2,277 CBP Agriculture 
Specialists. NTEU urges Congress to authorize and fund the additional 
2,274 CBP Officers and the 880 CBP Agriculture Specialist needed 
according to CBP's own staffing model.
    Also, NTEU continues to have concerns of CBP's stated intention to 
change its staffing model design to reflect only allocations of 
existing resources and no longer account for optimal staffing levels to 
accomplish their mission.
    Finally, NTEU strongly supports Section 805 of S. 3623, the fiscal 
year 2009 DHS Authorization bill introduced in the Senate last 
Congress, that through oversight and statutory language, makes clear 
that the agricultural inspection mission is a priority and increase CBP 
Agriculture Specialist staffing, impose an Agriculture Specialist 
career ladder and specialized chain of command. H.R. 3623 in Section 
815 also extends CBP Officer enhanced retirement to their ranks and to 
CBP Seized Property Specialists.

CBP Seized Specialists
    CBP Seized Property Specialists are uniformed and armed GS-1801 
Officers responsible and accountable for accepting, securing, storing, 
maintaining and disposing of dangerous drug evidence. Seized Property 
Specialists are responsible for all seized personal and real property, 
including controlled substances, currency and firearms, by Border 
Patrol Agents and Customs and Border Protection Officers. The 
approximately 125 CBP Seized Property Specialists are the keepers of 
millions of dollars worth of sensitive evidence and other contraband 
until final disposition. Transportation to destruction facilities and 
destruction of seized property is an integral part of their jobs.
    When CBP was created in March 2003, it was decided that all CBP 
Officers would be placed under one compensation system both for base 
pay and for overtime and premium pay. The system is the Customs 
Officers Pay Reform Act (COPRA) system and applies to all CBP Officers.
    CBP Seized Property Specialists comply with the same qualification 
standards and requirements as CBP Officers do. They qualify in handgun 
proficiency, undergo self defense tactics training and learn defensive 
and restraint techniques every trimester. They undergo the similar 
specialized training and are issued the same equipment. Yet Seized 
Property Specialists are not under the COPRA overtime and premium pay 
system.
    Also, as you know, On December 26,2007, the President signed the 
2008 Consolidated Appropriations Act, that included an enhanced 
retirement benefit for CBP officers. The enhanced retirement benefit 
(section 535 of the Act) is similar to that provided for law 
enforcement officers. The provisions of this enhanced retirement 
package became effective on July 6,2008. Again, Seized Property 
Specialists comply with the same qualification standards and 
requirements as CBP Officers do. Yet, CBP Seized Property Specialists 
are not covered by the new enhanced retirement benefit.
    On behalf of the CBP Seized Property Specialists (GS-1801 series) 
assigned around the nation, NTEU has requested that the enhanced 
retirement provision and that COPRA be extended to all Seized Property 
Specialists at CBP. Both these actions will result in a more unified 
CBP workforce. This discrepancy could be resolved administratively by 
the Department. If the Department does not act, NTEU will seek a 
legislative remedy. The Senate Committee included a legislative 
extension of enhanced retirement benefits to SPS in it fiscal year 2009 
authorization bill, H.R. 3623, Section 815.

CBP Trade Operations Staffing
    CBP has the dual mission of not only safeguarding our nation's 
borders and ports from terrorist attacks, but also the mission of 
regulating and facilitating international trade; collecting import 
duties; and enforcing U.S. trade laws. Customs revenues are the second 
largest source of federal revenues that are collected by the U.S. 
Government. Congress depends on this revenue source to fund federal 
priority programs. Trade volume is growing exponentially, while CBP 
trade enforcement staffing remains stagnant. In 2005, CBP processed 29 
million trade entries and collected $31.4 billion in revenue. According 
to a GAO report on Customs Revenue (GAO-07-529), CBP collected nearly 
$30 billion customs duties in fiscal year 2006, but concluded that 
CBP's shift in mission contributed to reduced focus and resources 
devoted to customs revenue functions. According to most recent budget 
projections, in 2009 the estimated revenue collected (Customs duties) 
is projected to be $24 billion--a drop of over $6 billion in revenue 
collected.
    Section 412(b) of the Homeland Security Act of 2002 (P.L. 107-296) 
mandates that ``the Secretary [of Homeland Security] may not 
consolidate, discontinue, or diminish those functions. . .performed by 
the United States Customs Service. . .on or after the effective date of 
this Act, reduce the staffing level, or reduce the resources 
attributable to such functions, and the Secretary shall ensure that an 
appropriate management structure is implemented to carry out such 
functions.
    According to the Trade Resource Allocation Model (RAM) required by 
Congress in the SAFE Port Act of 2006 and dated July 6, 2007, CBP needs 
1,100 Import Specialists on board by fiscal year 2010 to meet its trade 
facilitation mission. NTEU asks the Committee to carefully scrutinize 
the 2007 Trade RAM and a forthcoming 2009 RAM also authorized by the 
SAFE Ports Act when determining CBP trade function funding needs.
    NTEU urges the Committee to ensure that CBP trade enforcement 
personnel is increased to staffing levels sufficient to ensure 
effective performance of customs revenue functions as determined by CBP 
in its own July 2007 Trade Resource Allocation Model.

TRAINING ISSUES
    NTEU's CBP members have told us that CBP Officer cross-training and 
on-the-job training is woefully inadequate. In addition, staffing 
shortages force managers to choose between performing port operations 
and providing training. In these instances, it is training that is 
sacrificed. As you know, I testified before this Subcommittee on the 
inadequacy of CBP training at a June 19, 2007 hearing entitled 
``Ensuring 1We Have Well-Trained Boots on the Ground at the Border.'' 
Because little has changed since that hearing, I refer you to that 
testimony with respect to continuing deficiencies in CBP employee 
training program.
    I do want to update you on a new development that once again shows 
how shortchanging, in this case, new CBP Officer training can be 
attributed to staffing shortages. In January 2008, I testified at a 
field hearing in El Paso about staffing shortages and increasing wait 
times at the land port. Shortly nine additional pedestrian lanes and 
two more passenger lanes will be opened at the Paso del Norte Bridge. 
It is NTEU's understanding that the El Paso Field Office is considering 
eliminating post academy training for CBP Officers by sending FLETC 
graduates directly from the academy to work the line at the POE.
    Last year, El Paso eliminated the post academy training for cargo 
inspection. Presently, post academy training in El Paso consists of six 
(6) weeks of training in passenger processing and six (6) weeks in 
passport control. If this change does occur, it most likely due to El 
Paso lacking sufficient personnel to staff, not only the existing 
border crossings, but also the new lanes. Lack of on the job training 
for new hires not only jeopardizes the career success, but possibly the 
health and safety of other employees.

RECRUITMENT AND RETENTION ISSUES
    Reported staffing shortages are exacerbated by challenges in 
retaining staff, contributing to an increasing number of vacant 
positions nationwide. ``CBP's onboard staffing level is below its 
budgeted level. . .the gap between the budgeted staffing level and the 
number of officers is attributable in part to high attrition, with 
ports of entry losing officers faster than they can hire replacements. 
Through March 2007, CBP data shows that, on average, 52 CBP Officers 
left the agency each 2-week pay period in fiscal 2007, up from 34 
officers in fiscal year 2005. . .Numerous reasons exist for officer 
attrition.'' (See GAO-08-219, page 34.)
    Currently CBP is seeking 11,000 new recruits for both Border Patrol 
and the Office of Field Operations, however, the majority of these CBP 
Officer new hires are to keep up with attrition, not to address CBP 
Officer optimal staffing levels as determined by CBP's own Resource 
Allocation Model.

CBP Exclusive Use of Federal Career Intern Program
    In 2000, the Office of Personnel Management issued regulations 
establishing the Federal Career Intern Program (FCIP). CBP now uses 
FCIP authority as its exclusive mean of hiring new CBP Officers. The 
FCIP was originally created as a limited special focus hiring program 
to provide formally structured two-year training and development 
``internships'' as a strategic recruitment tool. Since then, however, 
because OPM placed very few restrictions on the program, its use by 
agencies has increased so dramatically that it amounts to a frontal 
assault on the competitive examination process as the primary method of 
hiring for competitive civil service positions. NTEU believes that 
there is no justification for FCIP's broad exemption from the 
competitive examination and selection requirements fundamental to the 
federal civil service.
    As established by OPM, the FCIP allows agencies to hire ``interns'' 
for almost any entry-level position. FCIP vacancies are not required to 
be posted for internal candidates or on OPM's USAJOBS web site. The 
FCIP authority threatens to undermine fundamental merit systems 
principles. These principles require that selection and advancement be 
determined on the basis of relative ability, knowledge, and skills, 
after fair and open competition which assures that all receive equal 
opportunity. The practical effect for new CBP hires is that there 
probationary period is unnecessarily expanded from one year to two 
years.
    Most importantly for all of us who support our war veterans, by 
using the FCIP exemption, CBP evades veteran's preference hiring as 
established by Uniformed Services Employment and Reemployment Rights 
Act. NTEU recently participated in a successful challenge to the 
legality of the excepted service hiring allowed under the FCIP. The 
petitioner, a 30% disabled veteran who had applied for an auditor 
position in the Department of Defense, was passed over in favor of two 
non-preference eligible applicants who were hired under the FCIP.
    Finally, existing federal programs that have never been widely 
implemented at DHS, such as the telework and student loan repayment 
programs have shown proven success in recruiting and retaining federal 
workers. Congress should inquire as to why these programs that also 
contribute to higher employee morale are not personnel priorities at 
DHS. Congress should also ensure that CBP embraces existing successful 
retention programs such as the NTEU-negotiated CBP Officer Foreign 
Language Award Program and expands its use and awards.
    NTEU RECOMMENDATIONS
    DHS employees represented by NTEU are capable and committed to the 
varied missions of the agency from border control to the facilitation 
of trade into and out of the United States. They are proud of their 
part in keeping our country free from terrorism, our neighborhoods safe 
from drugs and our economy safe from illegal trade. The American public 
expects its borders and ports be properly defended.

    Congress must show the public that it is serious about protecting 
the homeland by:
        <bullet> Granting collective bargaining rights to TSOs and 
        putting TSOs under Title 5;
        <bullet> repealing Title 5, Chapter 97, the compromised DHS 
        personnel system;
        <bullet> fully funding CBP staffing needs as stipulated in 
        CBP's own staffing models;
        <bullet> ending the One Face at the Border initiative;
        <bullet> reestablishing CBP Officer and CBP Agriculture 
        Specialist inspection specialization at our 327 ports of entry; 
        and
        <bullet> extending LEO coverage to all CBP Seized Property 
        Specialists and CBP Agriculture Specialists, and
        <bullet> end the use of the Federal Career Intern Program as 
        the exclusive hiring authority for CBP employees.
    I urge each of you to visit the land, sea and air ports of entry in 
your home districts. Talk to the TSOs, CBP Officers, canine officers, 
agriculture specialists and trade enforcement specialists there to 
fully comprehend the jobs they do and what their work lives are like.
    Again, I would like to thank the committee for the opportunity to 
be here today on behalf of the 150,000 employees represented by NTEU.

    Mr. Carney. Thank you for your testimony.
    We will now recognize Mr. Gage for 5 minutes.

STATEMENT OF JOHN GAGE, NATIONAL PRESIDENT, AMERICAN FEDERATION 
                OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Gage. Thank you, Mr. Chairman, subcommittee members.
    I am here on behalf of the more than 600,000 federal 
employees AFGE represents, including those who work for the 
Department of Homeland Security and Border Patrol, ICE, FEMA, 
Coast Guard, Federal Protective Service, CIS, plus the more 
than 40,000 TSOs, of which over 25 percent are AFGE members, 
despite the fact that they are without the rights afforded 
other similar DHS employees.
    I thank you for the opportunity to testify today on the 
severe problems of DHS faces regarding its workforce.
    My written testimony discusses at length personnel issues 
for DHS agencies represented by AFGE, issues which the 
department must address to both fulfill its mission to the 
country and its obligation as the employer of workers 
performing critical tasks day in and day out.
    The problems of DHS, and especially TSA, are numerous and 
well documented by congressional hearings and reports, by GAO 
reports, by two courts when they declared major pieces of the 
DHS personnel plan to be illegal in lawsuits brought by AFGE 
and others, by the decision of the Congress not to fund MAX HR, 
by the failure of Katrina, and by survey data showing DHS and 
TSA at the bottom among federal employees from the employees' 
perspectives.
    Since its creation, the management of DHS and its 
components has come to reflect the definition for bad 
management of a public agency.
    The management problems can be categorized as follows: 
anti-employee, anti-union policies at the top, which only 
encourage anti-employee, anti-union practices in the workplaces 
and the divisions.
    This in turn led to poor morale, high attrition rates, loss 
of skilled employees and poor operational management, 
inadequate resources to fund the positions and the tools needed 
by the employees to do their jobs, a decentralized management 
structure without accountability for managers to perform or 
behave properly, a decision to rely upon profit-oriented 
contractors instead of a professional civil service, leading to 
billions of dollars wasted in poor performance, and faulty 
appointments and the lack of appointments and key management 
positions.
    DHS has had more flexibility than any other Cabinet agency. 
TSA has had unlimited flexibility, as they were exempt from all 
laws and regulations governing personnel.
    And what has flexibility meant for TSA? The Best Places to 
Work report tells us with its flexibility measures, TSA was 
dead last--222 out of 222 agencies--on the questions of 
effective leadership, questions of satisfaction toward pay and 
benefits, the question of performance-based rewards and 
advancement, and on the question of work-life balance.
    TSA's pay system, known as PASS, is a failure, as evidenced 
by the survey results I have just referenced. Congress should 
end PASS immediately and place for TSA employees under the GS 
pay system.
    Also, TSA has the highest on-the-job injury rate in 
government. This EDO filings of TSA represent 31 percent of the 
total in DHS, and the average attrition rate since 2003 for 
TSOs has exceeded 20 percent.
    These problems at TSA undermine the mission of the agency. 
Our members are dedicated Americans, who believe that the 
mission. Our members believe in good government, and we have 
their union stand ready to work with Congress and the new 
administration to bring about positive change in DHS and TSA.
    For TSA this can only be done by enacting legislation that 
would treat TSOs as full Title 5 employees with all the rights 
and protections, including the right to organize and bargain 
collectively as provided under Chapter 71, just like they are 
fellow DHS employees in Border Patrol, ICE, CBP, FEMA, Coast 
Guard and ICE.
    Good government needs a workforce that is experienced, 
well-trained, team oriented and focused on the mission without 
the distraction of the poor management issues I discussed.
    AFGE is ready to do our part. We call on Congress to 
support the management and staffing issues we raised in our 
written testimony for the other components within DHS. The 
culture in DHS must change from anti-employee to pro-employee. 
A new esprit de corps in DHS can and must be created.
    A recent MSPB study reported that employee engagement is 
one of the key criteria for successful agency performance. That 
concept is simple and makes sense. The best way for DHS to 
engage its employees in a positive way is to effectively engage 
with the employees' elected representatives, their unions.
    DHS should move quickly and boldly to bring about a 
positive labor union engagement at the top and throughout DHS. 
This will be difficult because of the decentralization of the 
DHS structure and culture, but the culture must change, and the 
management at all levels must be accountable by the secretary.
    That concludes my statement. I will be happy to answer any 
questions.
    [The statement of Mr. Gage follows:]

                    Prepared Statement of John Gage

    Mr. Chairman and Subcommittee Members: My name is John Gage, and I 
am the National President of the American Federation of Government 
Employees, AFL-CIO (AFGE). On behalf of the more than 600,000 federal 
and District of Columbia employees our union represents, including 
approximately 40,000 who work for the Department of Homeland Security 
(DHS), I thank you for the opportunity to testify today on the severe 
problems the Department faces regarding its workforce. I will address 
the Department's notorious low morale, its failures to match resources 
and mission, the controversial, wasteful, and ultimately abandoned DHS-
specific human resources management system; the staffing shortages that 
have resulted from high attrition, misallocation of resources, and 
misguided budget priorities; and the Department's failure to fulfill 
its promises and requirements with regard to employee training.
    Finally, I will address the shameful fiasco known as PASS 
(performance, accountability and standards system), the so-called 
performance pay system that the Transportation Security Administration 
(TSA) implemented for Transportation Security Officers (TSOs) instead 
of placing them in the General Schedule with the rest of the federal 
workforce.

Introduction
    Immediately after September 11, 2001, the Bush Administration took 
every opportunity to erode or eliminate civil service protections and 
collective bargaining rights for federal employees. After they 
reluctantly agreed that the terrorist attacks necessitated federalizing 
airport security functions, they insisted that the legislation not 
allow security screeners the rights and protections normally provided 
to federal employees. Consistent with this position, then Under 
Secretary of TSA Admiral James Loy issued a decision on January 8, 2003 
which denied the right to collective bargaining to all airport security 
personnel.
    In 2002, the Bush Administration reluctantly agreed to the creation 
of the Department of Homeland Security (DHS). However, the quid pro quo 
for that acquiescence was that federal employees who were transferred 
into the new Department would not be guaranteed the collective 
bargaining rights they had enjoyed since President Kennedy was in 
office. In addition, the Bush Administration insisted that the 
legislation which was eventually signed into law exempt the DHS from 
compliance with major chapters of Title 5 of the U.S. Code, including 
pay, classification, performance management, disciplinary actions and 
appeal rights, as well as collective bargaining rights. AFGE filed a 
lawsuit challenging the Department's final regulations. On August 12, 
2005, Federal District Court Judge Rosemary Collyer ruled that major 
portions of the DHS regulations were illegal, and enjoined the labor 
relations and employee appeals systems. On June 27, 2006, the Court of 
Appeals essentially upheld her decision. Congress has since refused to 
appropriate funds for further implementation of the DHS personnel 
program. Congress should now go further and end this anti-federal 
worker, anti-union experiment by repealing the last vestiges of the DHS 
personnel program.
    The establishment of DHS in 2002 combined 22 federal agencies that 
employed approximately 170,000 federal employees, 40,000 of whom are 
represented by AFGE. These employees now work for TSA, Border Patrol, 
Immigration and Customs Enforcement (ICE), Citizenship and Immigration 
Service (CIS), the Federal Emergency Management Agency (FEMA), the 
Federal Protective Service (FPS), the Coast Guard, and other bureaus 
and agencies of DHS.
    Section 841 of the Homeland Security Authorization Act authorized 
the establishment of a new Human Resource Management System for the 
Department, and provided the Administration with the ability to modify 
Title 5 of the United States Code in each of the following areas: pay, 
classification, performance management, adverse (serious disciplinary) 
actions, appeals, and labor-management relations. This broad authority 
-and its abuse -are the real reason why we are here today discussing 
the profound problems in DHS rather than celebrating any of its hoped-
for successes.
    Seven years after the establishment of DHS, after lawsuits and 
protests, the expenditure of large sums on contractors hired to invent 
elaborate new personnel systems, and the arrogant and politicized 
exercise of its extraordinary authorities with regard to the treatment 
of its workers, we can say unequivocally that giving the Secretary of 
DHS these authorities was an error. By rescinding plans for its new pay 
system, DHS has admitted the failure of that conceived venture. We 
await the moment when the rest of DHS' personnel policies are likewise 
abandoned and the Department's workforce can focus, without political 
interference, on its national security mission.

Transportation Security Administration (TSA)
    When Congress passed the Aviation Transportation Security Act 
(ATSA) that created TSA and thereby federalized the function of airport 
screening by creating the position of Transportation Security Officer 
(TSO), it made a pledge to the American public: TSA would hire 
``sufficient number of Federal screeners'' and provide them with 
uniform training, good wages and benefits that would result in a 
highly-trained career workforce with low turnover to protect the flying 
public. The nation's TSOs have more than held up their end of the 
bargain: Since TSO jobs were federalized in November 2001, there has 
not been one act of aviation terrorism in the United States.
    In return, the Bush Administration used a statutory footnote to 
place sole discretion over TSO workers' rights and workplace conditions 
in the hands of the TSA Administrator. Under the Bush Administration, 
TSA administrators prohibited such Title 5 rights and protections as 
the right to bargain collectively and to an exclusive bargaining 
representative, enforceable whistleblower protections, the 
Rehabilitation Act, the Civil Service Reform Act, the Fair Labor 
Standards Act, the Veterans Opportunity in Employment Act, the 
Uniformed Services Employment and Reemployment Rights Act, appeal 
rights to the Merit Systems Protection Board, the General Schedule 
salary scale and Office of Personnel Management adjudication regarding 
compensation and leave issues.
    After seven years as serving as the country's first line of defense 
against aviation terrorism, immediate actions must be taken to grant 
TSOs the same fundamental workplace rights and protections as other 
federal workers. The quickest way for this to happen is for the new TSA 
administrator to (a) rescind the January 8, 2003 directive issued by 
then-TSA Administrator Loy that prohibits collective bargaining and the 
election of an exclusive representative for TSOs and (b) to apply Title 
5 of the United States Code to TSOs. Second, Congress must enact 
legislation explicitly denying the TSA administrator the authority to 
deny union rights to TSOs, and explicitly placing them under Title 5 
along with the rest of the federal workforce. Only then will these 
workers have full statutory protection against the whims of future 
administrations that might decide to pursue policies similar to the 
Bush Administration's that use ``national security'' as a pretext for 
anti-union animus. The statutory footnote granting the TSA 
administrator sole discretion to determine the collective bargaining 
rights and workplace protections afforded TSOs should be rescinded.
    The first responders on September 11, 2001--firefighters, police 
officers and emergency medical technicians--were among the most highly 
unionized workers in the country. Numerous other law enforcement 
officers now working under DHS such as Border Patrol agents, Federal 
Protective Service officers, and Immigration and Customs Enforcement 
agents all have collective bargaining rights and full civil service 
protections. The Capitol Police have collective bargaining rights and a 
strong union contract. Screeners at two of the airports allowed to hire 
private screeners as part of the ATSA pilot program are currently 
working under collective bargaining agreements negotiated with TSA, but 
TSA has never claimed that their rights and the contracts that have 
been negotiated interfere with the agency's mission.
    The denial of fundamental workplace rights is more than a litany of 
woes. Without the right to collective bargaining and to an exclusive 
bargaining representative via the Federal Service Labor-Management 
Relations Act, TSOs have no recourse when they are retaliated against 
for engaging in union activity. Despite President Obama's clearly 
stated preference that TSOs have union rights, there has been a marked 
increase in retaliation against AFGE's TSO activists at airports around 
the country--retaliation that includes termination. Local TSA 
management officials have sought to chill the free speech of TSOs by 
limiting when and where they can discuss AFGE's organizing efforts in 
violation of directives from TSA headquarters. Further, TSA managers 
have harassed and retaliated against AFGE TSO activists who have 
disclosed wrongdoing at their airports to their Members of Congress.
    Thousands of soldiers honorably discharged from the military are 
denied veterans' preference by TSA for their service because they did 
not retire from the military. TSOs who return from deployment--
including those deployed to combat areas in Iraq and Afghanistan are 
denied promotions and raises in violation of the Uniformed Services 
Employment and Reemployment Rights Act. Although the public and 
Congress both called for a professional, experienced, highly trained 
and well-compensated screener workforce under federalization, TSA's 
denial of fundamental workplace rights and protections has resulted in 
the government's highest attrition rate, an annual average in excess of 
20 percent since 2003. Further, TSA's on-the-job injury rates rank 
among the highest in government, and TSOs are unable to comply with 
Congressionally-mandated training requirements due to understaffing at 
airports. Finally, TSOs are only 23% of the total DHS workforce, yet 
they account for 31 % of the Department's new formal EEOC filings. 
These facts and figures speak for themselves, but clearly the agency is 
poorly managed, and the result is a workforce that is unable to devote 
its full time and energies to the agency's mission.
    TSA managers have the right to appeal their own adverse personnel 
decisions to the Merit Systems Protection Board and have access to 
federal court, including for retaliation for whistleblowing, but rank-
and-file TSOs do not. In fact, all employees at TSA with the exception 
of TSOs have the rights and protections of other federal employees in 
DHS. There is absolutely no connection between the denial of these 
rights and national security. The TSO personnel system is nothing more 
than a laboratory setting for the exploration of anti-worker 
sentiments. TSA has yet to offer a valid or even cogent explanation of 
how the denial of these rights makes the flying public safer.
    Just as former TSA administrators have denied these very important 
rights and protections under the ATSA statutory note, the current or 
new TSA administrator under the Obama administration could grant the 
same rights and protections. But a future administration could revert 
to the Bush Administration's interpretation. That is why AFGE urges 
Congress to repeal the language in the statutory note, and grant TSOs 
full rights and protections under Title 5, including the grant of 
protection against pay discrimination by coverage under the General 
Schedule pay system.
    Although TSOs are allowed to join unions because that is a 
Constitutional right, they are denied the opportunity to elect an 
exclusive collective bargaining representative and cannot file unfair 
labor practice charges with the Federal Labor Relations Authority when 
management wrongfully retaliates against them for engaging in union 
activities. As then-candidate Obama so directly stated in his October 
20, 2008 letter to AFGE, ``Collective bargaining agreements also 
provide an excellent structure to address issues such as a fair 
promotion system, the scheduling of overtime, shift rotation, health 
and safety improvements, parking, child care and public transportation 
subsidies. By addressing these day-to-day issues in a manner that is 
both functional and fair, I believe the unacceptably high attrition 
rate of TSOs will improve and more TSOs will remain on the job.'' We 
strongly agree with President Obama's assessment.

TSA's ``Performance and Accountability Standards System'' (PASS)
    The PASS system at TSA has been an enormous failure. Among pay-for-
performance schemes, PASS has the distinction of having been reformed 
numerous times over its brief life because even its architects 
recognize that it wastes time and resources. It also destroys morale, 
renders retention of productive and experienced workers next-to-
impossible, and makes a mockery of serious efforts to improve 
performance, establish esprit de corps, or develop a culture wherein 
employees feel like valued members of a team.
    PASS started out as a pay plan that was a system in name only, as 
there was little about it that was systematic or consistent. When TSOs 
were hired, they were told that they would be evaluated through a point 
system on the basis of skills acquired through agency training, 
personal traits, and on-the-job performance. There would be four rating 
possibilities: ``role model,'' ``exceeds standards,'' ``meets 
standards,'' and ``below standards.'' Those who obtained the highest 
rating were promised significant base pay increases and bonuses, those 
who met standards would receive only a bonus, and those who were rated 
``below standards.'' would get nothing. What ensued in the next couple 
of years turned the PASS into a joke. Workers often did not receive 
promised training and therefore could not qualify for the highest 
rating, supervisors failed to complete evaluation forms (not in every 
case because of malice or ineptitude, but because inadequate staffing 
forced them to spend their time supplementing TSO duties rather than 
filling out evaluation forms), and the criteria having to do with 
personal traits, such as ``professional presence'' and ``integrity'' 
were so susceptible to discrimination, subjectivity, and intimidation 
that few tried to meet them. Further, TSOs were evaluated on numerous 
criteria by employees of Lockheed-Martin, the contractor hired to train 
the employees. If Lockheed evaluators issue a failure rating, makes 
more money retraining and then re-evaluating them, a conflict of 
interest that further undermines the integrity of the system.
    In 2008, acknowledging failure, TSA changed PASS somewhat by 
creating one additional rating called ``meets and exceeds standards'' 
which carried a small base pay increase and a small bonus. They also 
reduced the number of times that supervisors had to evaluate TSOs from 
four times a year to twice a year, and let new employees work six 
months before testing them immediately on Standard Operating Procedure 
(SOP) skills. So-called ``dual function TSOs'' who screen both 
passengers and baggage, under the ``reformed'' PASS, were supposed to 
receive larger bonuses in subsequent years in recognition of the 
greater number of skills these two functions require. And supervisors 
were supposed to record PASS evaluation data electronically rather than 
in a two-step paper first, then electronic format. And finally, there 
were supposed to be improvements in the ``image quizzes'' because even 
TSA management admitted that the earlier tests were meaningless because 
of wide variations in standards.
    One of the most egregious aspects of PASS is that employees of 
Lockheed-Martin, the contractor TSA hired to provide the X-ray 
equipment, are also hired by the agency to evaluate TSOs on their 
ability to use the X-ray equipment. This conflict of interest is wrong 
in and of itself. However, TSOs also are denied any means of appeal of 
the evaluations that contractors report to an independent third party 
(such as the Merit Systems Protection Board, the EEOC, or the 
Government Accountability Office, forums available to their fellow 
federal employees). The result is a system that is inarguably flawed. 
(Despite TSA's assertions to the contrary, AFGE's TSO members report 
that Lockheed-Martin employees are still conducting evaluations.) TSOs 
report that supervisors who have never worked a shift with them have 
been assigned to perform their evaluations, and that there is virtually 
no accountability for management.
    Another of the categories that is crucial to a TSO's performance 
evaluation and eligibility for pay raises and bonuses under PASS is the 
assignment of ``collateral duties.'' These are functions outside the 
TSO's normal security screening responsibilities, such as mentoring new 
employees, working in the property recovery program, and working in the 
security program (where TSOs screen fellow TSOs for extra security). 
The opportunity to perform collateral duties adds additional points to 
a TSO's evaluation score under PASS; it can make the difference between 
receiving a decent raise and/or bonus or receiving none. But TSA has no 
program to coordinate the distribution of these opportunities. 
Collateral duty assignments are entirely at the discretion of 
individual managers, and there is absolutely no transparency or 
accountability regarding how these assignments are awarded. Despite 
their scores, TSOs who are injured are ineligible for any raises or 
bonuses under PASS, even if the injury was work-related.
    The situation with respect to collateral duties is repeated in the 
area of ``shift bidding''. In 2008, TSOs who worked ``split shifts'' 
received eight percent pay increases, while those on regular shifts 
with identical PASS evaluations received raises varying between two and 
three percent. Managers have complete discretion in deciding which TSOs 
work which shifts, despite the fact that this decision has enormous 
consequences for an individual TSO's pay increase. Each Federal 
Security Director is given such wide discretion in determining shift 
bids that they can decide TSO shift assignments based on whatever 
criteria they want-often ignoring without violating management 
directives.
    The obvious and necessary solution is to place TSOs into the 
General Schedule (GS) locality pay system and to abolish PASS. The GS 
system provides the opportunity for career development, market-based 
salary adjustments, and performance-based step increases. All changes 
to pay under the GS system reflect changes in pay in the private sector 
and in state and local governments, as calculated by the Department of 
Labor. It grades jobs and assigns salaries on the basis of objective 
criteria. The GS system is in every way superior to the unaccountable 
and subjective PASS and is what TSOs deserve to establish them once and 
for all as federal employees, rather than a second-tier federalized 
workforce with inferior pay and an inferior set of civil service 
protections.

The Federal Emergency Management Agency (FEMA)
    The Federal Emergency Management Agency was created in 1979 by 
President Jimmy Carter to help protect American lives and property from 
the consequences of emergencies and disasters, whether natural or man-
made. During the 1900's under the leadership of James Lee Witt, FEMA 
became a model government agency whose staff had high morale and a keen 
sense of mission, and who met America's needs in disasters.
    But after 2001, it was a different story. Under the Bush 
Administration, a succession of marginally qualified executives allowed 
FEMA's capabilities to deteriorate, and FEMA's budget and resources 
were cannibalized by the newly-created DHS. When Hurricane Katrina 
struck in 2005, FEMA was badly understaffed and, worse, was taking 
orders from Homeland Security specialists who knew little or nothing 
about disaster response and who seemed concerned mainly with protecting 
the Administration's public image. For example, a National Situation 
Report produced by FEMA staff gave FEMA and DHS executives a detailed 
warning about the impending storm 48 hours before Katrina hit. After 
the Katrina fiasco, the incriminating report was deleted from FEMA's 
public website, and was later restored only after legal action was 
brought by outside groups who were aware of the report's existence.
    After Katrina, everyone hoped FEMA would be reinvigorated, but 
instead the agency's downward spiral continued. Seeing opportunities 
for high-profile career advancement, numerous military, Coast Guard, 
and DHS executives moved into the top jobs at FEMA, pushing out more 
experienced emergency managers. Civil service hiring rules appear to 
have been bypassed or ignored to hire new people at all levels while 
career ladders for FEMA's long-time experienced staff became a thing of 
the past. Nowadays, military or Homeland Security experience 
(preferably in a white male) is highly valued at FEMA; Federal, State 
or local disaster management expertise is not.
    The result has been chaos. Programs are cancelled and then re-
started; offices are constantly being reorganized, then reorganized 
again; agency leadership continually activates emergency teams and 
brings in staff to work evenings, nights, and weekends (at a 
significant cost to the taxpayers) when there is little or no danger of 
a major disaster. The main focus now seems to be on public relations, 
not emergency management: During the 2007 California wildfires, a major 
priority was that all staff in the field wear FEMA hats, while at the 
same time FEMA executives tried to conceal the problem of hurricane 
victims who were living in formaldehyde-emitting trailers. FEMA Deputy 
Director Harvey Johnson went so far as to hold his now-infamous ``phony 
press conference,'' one more example of trying to burnish FEMA's image 
while neglecting its mission.
    FEMA's career staff have continued to suffer (or quit), not only 
from watching their agency collapse around them, but from the 
increasingly abusive and disorganized atmosphere within the agency 
itself. Staff complain that they cannot get job training, that they do 
not receive performance ratings, that in some cases they cannot even 
figure out who their boss is. Complaints of harassment and 
discrimination on the job have risen enormously, and FEMA has paid 
large sums of taxpayer dollars to settle these claims, including an 
allegation by a female employee that she was sexually assaulted in her 
office by a FEMA executive. One employee reported that a supervisor 
routinely referred to other employees in derogatory ways (using 
nicknames that exaggerated physical traits or employed sexual slang) 
during staff meetings, only to be told to ignore such remarks because 
that supervisor has ``a tendency to be blunt.'' A female employee 
reports that she was shoved and threatened at work by a male employee, 
but her supervisor never reported the matter to FEMA Security. Another 
female employee who was receiving unwanted advances from a male 
employee was told that he could not be disciplined ``because he is a 
good writer.'' But the employee who leaked the photos of Harvey 
Johnson's phony press conference that wound up in the Washington Post 
was fired for ``poor job performance'' even though he had received a 
pay raise for his job performance just a few months before. As you can 
imagine, the absence of basic professional decorum by agency leaders 
has had a profoundly negative effect on employee morale.
    Every survey done at FEMA shows employee morale at rock-bottom. 
FEMA struggled to reach 95% staffing in 2007, but a year later staff 
levels were back down to 75%. In other words, people are quitting 
faster than they can be replaced, and many of those who remain are 
looking for new jobs or planning to retire. Even FEMA's elite disaster 
managers, the Federal Coordinating Officers, continue to leave. Yet up 
until Inauguration Day, the agency's answer was more questionable 
hiring, promotions, realignments, and contracts.

    Undoing the damage of the Bush years will take extraordinary 
effort. AFGE's FEMA Council has recommended to the Obama Administration 
the following:
        <bullet> Closely examine all recent hiring, promotions, 
        realignments, and contracts. Look especially closely at 
        recently-awarded contracts and at jobs that were filled without 
        being advertised openly, to determine if applicable laws have 
        been followed.
        <bullet> Review the qualifications and iob performance of all 
        GS-14's and above who have been brought into FEMA since 2005. 
        Many of these individuals have little or no emergency 
        management experience, and are locked into a military-style 
        top-down approach that runs opposite to the collaborative 
        nature of Federal-State-local emergency management. They are 
        not the leaders we need at FEMA.
        <bullet> Talk with FEMA employees and unions to find out what 
        they think. The events listed here represent a small fraction 
        of the personnel abuse that has occurred over the last eight 
        years. There has been almost no dialogue between FEMA's 
        political appointees and career staff throughout the Bush 
        Administration's term. We are hopeful this will change under 
        the Obama Administration.
        <bullet> Ask how fixed FEMA in 1993. When James Witt became 
        FEMA Director in 1993, he inherited an agency that was in a 
        shambles, as it is now. Within a year he turned it around. We 
        believe that both Congress and the Administration should ask 
        Mr. Witt and his Chief of Staff, Ms. Jane Bullock, how they 
        accomplished this.

Border Security
    Until Congress passes legislation to reform our immigration laws, 
AFGE's Border Patrol Agents recognize that their ability to provide 
true border security will be severely limited. The indifference, and at 
times, outright hostility on the part of management toward the views of 
the Border Patrol workforce during the previous administration has been 
costly both financially and in terms of effectiveness in carrying out 
the agency's mission. However, even before immigration reform 
legislation is passed, there is much that DHS can do to rebuild morale 
and reduce excessive attrition among the Border Patrol workforce. 
Border Patrol Agents need and deserve improvements in training, pay, 
and incentives to remain with the agency rather than take their law 
enforcement skills elsewhere.
    There are numerous steps that the Border Patrol can take to ensure 
that its employees are treated like valuable assets, rather than 
expendable pawns. Many Border Patrol Agents are underpaid relative to 
their counterparts not only in federal law enforcement, but in state 
and local government as well. They are certainly overworked, and not 
adequately rewarded for their extra efforts. The agency's attrition 
numbers bear witness to the way Border Patrol Agents feel about this 
state of affairs. As you may know, 30 percent of Border Patrol Agents 
leave during their first 18 months on the job. This high attrition 
requires the agency to waste millions each year on perpetual recruiting 
and training to replace those who leave. Would it not make more sense 
to be selective in the hiring and screening process and provide real 
financial incentives to encourage trained and experienced employees to 
continue to serve?
    We also believe that the Border Patrol has suffered under the 
organization structure that places it under the Bureau of Customs and 
Border Protection (CBP). Border Patrol should be an independent bureau 
within DHS, and granted full operational control of all its assets. 
That way, the mission of border security would not be compromised by 
having to compete within its own agency for resources and strategic 
focus.
    Many of the needed reforms mentioned here are embodied in Title VI 
of H.R. 264, legislation introduced by Rep. Sheila Jackson Lee (D-TX). 
In general these provisions are intended to dramatically enhance 
mission effectiveness and ensure a stronger, safer nation. We urge the 
Subcommittee to incorporate Title VI into its bill.
    Finally, rather than waste billions of dollars each year on 
unproven technologies that are only marginally useful to Border Patrol 
Agents in the field, it would make far more sense to tailor the 
technologies to the work that they perform. The primary reason that 
SBInet has failed is that it was constructed around the flawed notion 
that technology can cost-effectively replace human initiative in law 
enforcement operations. While some of the technologies that have 
emerged from this program have proven useful, overall it has failed to 
deliver enough value to justify its continuation. Future efforts to 
provide technology need to be closely coordinated with the men and 
women who actually perform the work.

Immigration and Customs Enforcement (ICE)
    The backbone of the workforce in Detention and Removal Operations 
is the Immigration Enforcement Agent (IEA). IEAs work at the nation's 
prisons identifying dangerous criminal aliens, they respond to calls 
for assistance from state and local law enforcement officers, they work 
with deportation officers conducting fugitive operations, they locate 
and apprehend criminal aliens who have slipped through the cracks, they 
prosecute aliens in federal courts, and they conduct enforcement 
operations when requested.
    These are all functions ICE agency management considers mission-
critical. It should not be assumed that AFGE union members or other ICE 
employees are in support of the recent spate of employer raids. In 
making our case to consider an upgrade of the IEA position from GS-9 to 
11, we urge the committee to keep this in mind. IEAs deserve an 
increase and are prepared to follow new policy initiatives with respect 
to such issues as enforcement, such as the Obama Administration orders.
    We have been told that approximately one third of all IEA jobs are 
vacant. ICE is competing with CBP and other federal agencies, and state 
and local agencies to attract educated and dedicated candidates for 
these critical positions. Until recently, ICE has been able to attract 
candidates from the ranks of Customs and Border Protection Officers 
(CBPO) because the IEA position provided law enforcement retirement 
coverage. Now that have been granted law enforcement retirement 
coverage, that recruitment angle no longer exists. In fact, as the CBPO 
position, like the Border Patrol Agent, has a journey level grade of 
GS-11, that flow of candidates may reverse.
    We are working with a bipartisan group of lawmakers in the House 
Immigration Reform Caucus to develop legislation to be introduced 
shortly. We will ask the committee to take a close look at this issue 
and consider incorporating the language into your new bill.

Federal Protective Service
    Although DHS placed the Federal Protective Service (FPS) under 
Immigration and Customs Enforcement, federal building security is 
largely unrelated to the rest of the agency's homeland security 
functions. Both the DHS Inspector General and the Government 
Accountability Office (GAO) have published scathing reports about the 
failures of ICE to effectively manage this critical agency. In fact, 
ICE has sought actively to downgrade or otherwise diminish the role of 
FPS at every opportunity. It has proposed the elimination of on-the-
ground police officers to patrol areas around federal buildings. These 
officers constitute a pro-active force to protect against potential 
terrorism and crime. ICE has also sought to reduce or freeze the budget 
of FPS while pursuing budget increases for every other division of the 
agency.
    AFGE strongly supports removing FPS from ICE. There no evidence 
that inclusion in this agency has been beneficial for federal building 
security, and there is much evidence that it has not. There is no 
administrative advantage in continuing with the current arrangement. 
FPS should be made an independent agency within DHS. In addition, 
Congress should provide funding so that the agency can meet the 2001 
minimum standard of 1,200 boots-on-the-ground law enforcement officers. 
Further, Congress should direct the agency to establish a team of FPS 
personnel with substantial operational security and law enforcement 
experience, such as that used by the former FPS director in 2005, to 
determine the actual number of personnel required to provide effective 
protection to GSA facilities and those owned by other non-Defense 
Department agencies and departments.
    Finally, AFGE strongly supported the provisions of S.3623, 
legislation introduced last year by Senator Lieberman, as part of his 
DHS authorization measure, to begin the process of reforming this 
agency. Although we were disappointed that the bill did not separate 
FPS from ICE, this is a vital reform we hope your Subcommittee will 
consider. We would also highlight a provision of the Senate bill that 
provides law enforcement retirement benefits to FPS Police Officers. 
This is a highly justifiable change given the requirements of the job, 
and a critical retention benefit to an agency that faces continuous 
attrition problems.

U.S. Citizenship and Immigration Services (CIS)
    Citizenship and Immigration Services (CIS) is the remaining vestige 
of the Immigration and Naturalization Service, and changing its name 
and placing it under DHS solved none of the agency's long-standing 
problems. The recent fee increase helped the agency hire enough new 
adjudicators to begin reducing the backlog of cases. But in part 
because of the very high fees now charged, and in part because of the 
economic downturn, application receipts are in decline. Since the 
agency relies almost entirely on fee revenue for its operating costs, 
the new adjudicator positions are in danger of being eliminated.
    The link between the agency's funding source and the treatment of 
its workforce may not be immediately apparent, but there is a direct 
connection. Because the agency's funding is so precarious and 
unpredictable, and is so disconnected from the actual costs of carrying 
out its mission, funding becomes an important factor in the way CIS 
employees are treated. Fee funding has institutionalized high turnover, 
extremely long-term temporary assignments, and wasted training dollars 
since long before DHS was created. We urge the Congress to provide 
funding for the agency so that it can invest in workforce stability, 
training, and new technology that will allow adjudicators not only to 
continue working to reduce the backlog, but to make sure that new 
backlogs do not develop.

The Coast Guard
    Management in the Coast Guard embraced President Bush's 
privatization agenda with a vengeance. The Coast Guard reviewed for 
privatization more federal jobs than the rest of DHS put together. In 
the waning days of the Bush presidency, the Office of Management and 
Budget (OMB) authorized the Coast Guard to replace privatization 
reviews with so-called Business Process Re-engineering (BPR) studies. 
The ``competitive sourcing'' office that once focused exclusively on 
meeting Bush Administration privatization quotas is handling the BPR 
program. The most recent announcement regarding BPR is that it will be 
known as ``Modernization'' and 357 positions in the Coast Guard's 
Industrial Program, and 950 positions in its Base Support Services 
(BSS) program will be ``Modernized.''
    In a context where there is trust and respect between management 
and labor, the prospect of re-engineering business processes would not 
be viewed with the level of skepticism and fear that our union feels 
within the Coast Guard. The fact that the Modernization initiative is 
being handled by the same office that so zealously pursued 
privatization is one reason why employees are approaching this 
initiative with trepidation. We have too much experience with 
contractors profiting at the expense of our nation's security to trust 
that BPR Modernization will not be a Trojan Horse filled with more 
contractors.
    The Coast Guard excluded our union from all ``pre-decisional'' 
discussions that led to the announcement that it will establish four 
Logistic/Service Centers. These pre-decisional efforts have been 
ongoing for two years, during which time AFGE representatives were 
never invited to participate. The Coast Guard did, however, include its 
contractors in these pre-decisional activities. One example of the 
impact of the union's exclusion emerged at the briefing after the 
announcement of the Centers. The Coast Guard announced that it would 
detail 27 employees to a test product line. It had randomly selected 
the employees for the detail, without having asked for volunteers 
first, which has been the practice in the past. No position description 
or statement of duties for the detail had been prepared; nor was there 
any information on how the performance of the employees on detail would 
be evaluated. This type of exclusion and secrecy, and the agency's 
cavalier attitude toward employee concerns are the reasons for our 
skepticism toward the Modernization program.
    Our first concern is that the Modernization effort not be used to 
undermine service to the public through an arbitrary reduction in the 
number of authorized positions. Inevitably, after reductions in Full 
Time Equivalents (FTE) undermine the agency's ability to fulfill its 
mission requirements, we are told that hiring contractors to fill the 
gap is the only alternative. The hiring of costly and unaccountable 
contractors subsequent to FTE cuts is a familiar and painful story. The 
Coast Guard's Modernization program has been described as A-76 without 
the competition. This means that the agency will undertake a review 
that has a pre-determined outcome. It will start with a requirement of 
reducing the number of jobs, and then ``study'' the work to determine 
which jobs to cut. A more valuable approach would be to examine whether 
each component has enough FTEs, given our responsibilities and 
obligations to the public. But that is not on the agenda.
    We ask that the Congress instruct the Coast Guard that it should 
not undertake random FTE reductions under the guise of Modernization if 
such cuts will undermine the agency's ability to carry out its mission. 
We also ask that the agency not be permitted to exclude the costs of 
conducting these studies from its ``savings'' estimates. Hiring 
contractors to undertake the study and taking Coast Guard employees 
away from their regular duties imposes genuine costs on the agency. 
Further, since the Coast Guard has not demonstrated a willingness to do 
the right thing, we request that the agency be reminded of its 
bargaining obligations as it undertakes changes in the context of BPR.

Conclusion
    However noble the intentions were in the creation of the Department 
of Homeland Security, the attitude of hostility and disdain for the 
Department's workforce was set when the Bush Administration insisted 
that the employee unions represented a national security threat. That 
calumny poisoned everything that followed.
    The damage to employee morale from the denial of collective 
bargaining rights and the imposition of an atrociously unfair and 
unaccountable pay system on Transportation Security Officers are the 
first places to start in repairing the integrity of DHS as a federal 
employer. The bitterness of having to fight repeatedly in court for 
basic rights such as the opportunity to chose union representation, and 
have appeals of adverse actions and negative performance ratings heard 
by impartial third parties can be healed, but not without a serious 
commitment to change.
    DHS is fortunate to have a large cadre of dedicated employees who 
possess a wealth of experience and creative energy and they are eager 
to give their all to fulfill the Department's crucial domestic security 
mission. The have done so under the most trying circumstances, and can 
do even more if the distraction of hostile management bent on the 
elimination of collective bargaining, the General Schedule pay system, 
and their civil service protections is ended. Add to that a commitment 
to obtaining the proper level of funding, an end to privatization 
reviews, and a fair and rational allocation of resources and the 
Department of Homeland Security will be second to none.
    This concludes my statement. I will be happy to respond to any 
questions.

    Mr. Carney. Thank you for your testimony.
    We will now recognize Ms. Bonosaro for 5 minutes.

 STATEMENT OF CAROL A. BONOSARO, PRESIDENT, SENIOR EXECUTIVES 
                          ASSOCIATION

    Ms. Bonosaro. Thank you, Mr. Chairman, for the opportunity 
to testify today.
    DHS workforce challenges related to the Senior Executives 
Service are a concern government-wide. DHS has always faced 
high SES turnover and vacancy rates. At present too many SES 
positions are vacant to ensure effective policy implementation 
and workforce oversight.
    Further, 25 percent of DHS career SES were eligible to 
retire last year, 34 percent this year and 41 percent in 2010, 
yet only 64 percent of DHS executives responding to a 2008 OPM 
SES survey agreed that the department could attract and retain 
high-quality senior executives.
    The SES pay and performance management system is a concern. 
In the OPM survey only 51 percent of DHS executives understood 
how their salary increases were determined. Thirty-four percent 
didn't know.
    Responses regarding performance awards were almost 
identical. Similar results were reported government-wide.
    While pay and performance management affect morale, 
utilization of the career SES has steadily diminished.
    Many executives have been buried under layers of noncareer 
appointees with limited ability to distinguish and accomplish 
long-term agendas, while we lose the benefit of seasoned career 
executives who know how to operate government programs and 
pursue the agendas of political leadership.
    One reform SEA proposes is to restore the stature of the 
SES is to place high-performing career executives in the 
assistant secretary for administration and other key positions 
requiring long-term experience at each agency, such as deputy 
or chief human capital officers, CIOs and CFOs.
    These positions are now reserved almost exclusively for 
political appointees.
    In 2008 DHS Acting Deputy Secretary Paul Schneider told the 
Senate committee it was essential that the department's highest 
human resources office be held by a careerist, yet this 
position is restricted by law to a political appointee.
    The SES pay system also must change to ensure that quality 
applicants will aspire to the SES, and those who are in will 
want to stay. With the large number of executives eligible to 
retire, this is imperative.
    When SEA surveyed the SES in 2006, 47 percent of those 
responding said the GS-14s and 15s were losing interest in SES 
positions. The 2008 OPM survey found that only 50 percent of 
senior executives believe the current pay system was helpful in 
recruiting qualified applicants.
    The GS-14s and 15s losing interest in aspiring to the SES 
is regularly reported to SEA. This is true, because SES pay 
increases have not kept up GS increases over the years.
    Executives don't receive locality-based pay. Annual 
increases are entirely discretionary, irrespective of 
performance. And alternative pay systems have become so 
generous that some GS-15s and equivalents make more than the 
executives who they work.
    Pay isn't a primary motivator, but it gives GS-14s and 15s 
pause. The SES requires added responsibilities, added risk, and 
less time with families, especially at DHS, where many SES jobs 
are viewed as 24/7.
    SEA proposes several legislative remedies. First, every 
senior executive rated fully successful or better should 
receive an annual guaranteed increase at least as much as the 
increase in the executive schedule plus a locality pay 
increase.
    In January 2008 senior executives rated fully successful, 
however, received an average 2.5 percent pay increase, while 
the GS employee in Washington, D.C., received a 4.5 percent 
increase without regard to his or her rating.
    Second, to recognize the reality that performance awards 
are an integral part of the SES compensation system, they 
should be included in executives ``high three'' in calculating 
annuities.
    Finally, continuing development and training is needed to 
keep career executives up-to-date and revitalized.
    In November Acting OPM Director Hager noted that recent 
history has proved the disadvantages for national security and 
disaster preparedness when leaders lack a government-wide 
perspective or are not experienced in working across agency 
lines to respond to national threats or issues.
    He urged agencies to offer details to other major 
components within their departments, training and education 
opportunities for executives designated as national security 
professionals.
    Senior executives often face a lack of training funds or 
are unable to take time away from their job. The OPM survey 
found that only 54 percent of DHS executives were satisfied 
with their developmental opportunities. Twenty-three percent 
said there were insufficient funds to maintain up-to-date 
skills.
    Only 34 percent said that their needs were even assessed. 
Because 34 percent of DHS executives responding to OPM's 2008 
have been SES members for 3 years or less, continuing 
development is critical, as many new executives face unexpected 
challenges.
    A lack of training and development affects the preparedness 
and effectiveness of DHS and all agencies, so SEA recommends a 
comprehensive review to ensure that SES training and 
development needs are met and that funding exists to implement 
OPM's new directive.
    But we look forward to working with you on these issues and 
urge Congress and the administration to implement the reforms I 
have outlined. Thank you.
    [The statement of Ms. Bonosaro follows:]

                Prepared Statement of Carol A. Bonosaro

    Chairman Carney and Distinguished Members of the Subcommittee:
    The Senior Executives Association (SEA) is pleased to testify 
before this Subcommittee concerning Senior Executive Service matters at 
the Department of Homeland Security (DHS). SEA is a professional 
association that for the past 29 years has represented the interests of 
career federal executives in government, including those in Senior 
Executive Service (SES) and equivalent positions, such as Senior Level 
(SL) and Scientific and Professional (ST) positions.
    Now that we are at the beginning of a new presidential 
administration, it is more important than ever, especially at agencies 
like DHS that are tasked with ensuring our national security, that 
critical initiatives are maintained and that there is expertise, 
leadership and continuity at the highest levels. The members of the 
career SES are uniquely positioned to lead agencies through this 
transition and to ensure that this happens. Career executives also 
serve as the interface or link between policy and implementation. An 
effective relationship between political appointees and career 
executives is the key to mobilizing the federal workforce to carry out 
new initiatives, reforms and improvements of existing programs.
    In considering the personnel practices and workforce challenges 
facing DHS, I will focus on those related to the Senior Executive 
Service and first on the significant issues at the Department 
specifically affecting the SES. Many of the issues discussed below are 
not only a concern at DHS, but government-wide. Therefore, it is 
necessary to examine the problems faced by DHS in the context of 
overall reform of the SES. This includes recommendations by the Senior 
Executives Association to restore career leadership, create a more fair 
and transparent pay and performance management system, and provide for 
training and continuing development of the SES. Making such reforms to 
the SES system across the government will help all agencies, including 
DHS, recruit and retain the best Senior Executives and ensure that they 
have the necessary tools to effectively carry out the missions of their 
agencies.
The Department of Homeland Security Senior Executive Service
    When the Department of Homeland Security was created, Senior 
Executives were brought together from across the government to lead the 
department. Since its inception, DHS has faced problems regarding its 
SES corps. They include continuing high rates of vacant positions and a 
high turnover of Senior Executives.
    In bringing career executives to the Department in 2003, DHS 
appears to have drastically underestimated the levels of leadership 
necessary to effectively run the agency. A 2008 report by the National 
Academy of Public Administration, commissioned by DHS under funds 
granted through the 2007 Supplemental Appropriations Act (Public Law 
110-28), to study the state of DHS at the 2009 transition, found that 
``DHS' initial allocation of total senior executive slots was well 
below the number it ultimately would need to accomplish its mission'' 
(Addressing the 2009 Presidential Transition at the Department of 
Homeland Security, p.51). In the years since, DHS has made requests to 
the Office of Personnel Management (OPM) to increase its number of SES 
positions. Even though the number of allocated positions has increased 
(from 323 positions in 2003 to 536 positions by the end of 2007), there 
are still too few Senior Executives at the agency to ensure the 
effective implementation of policy and oversight of the workforce. In 
fact, as of March 2008, the NAPA report found that 139 positions remain 
vacant, creating a large gap in the career leadership structure at DHS. 
While we are not aware of whether political appointees from the last 
administration may still be in office, current vacancies in the career 
corps may well have necessitated such a situation. If so, that would 
most likely slow down, if not inhibit, the institution of new policies.
    Problems with recruiting and retaining Senior Executives contribute 
to the high vacancy rate. It is not clear that DHS has determined 
precisely what contributes to those problems, for example, by 
conducting regular exit interviews with those leaving. In any event, 
many of the original Senior Executives tasked with starting DHS in 2003 
were already close to retirement. Several congressionally mandated 
reorganizations of DHS have created increased challenges for Senior 
Executives and may well have hastened the retirement or transfer to 
other agencies of still other Senior Executives. According to the DHS 
strategic plan for FY09--13, 25% of career SES were eligible to retire 
in 2008, with the number increasing to 34% in 2009 and 41% in 2010. Of 
DHS executives responding to the 2008 OPM SES survey, only 64% agreed 
that the department was able to attract and retain high quality Senior 
Executives. Therefore, it is critical that problems affecting 
recruitment and retention be resolved as quickly as possible.
    A lack of transparency in the SES pay and performance management 
system at DHS concerns many career executives. Like all federal 
employees, Senior Executives value clear performance standards and 
feedback from their supervisors (in many cases, political appointees). 
According to one member of the Senior Executives Association, who is an 
employee at DHS:
        It is bewildering why political leadership do not discuss 
        performance nor explore an executive's development. As I near 
        retirement I have not had a meaningful discussion on my 
        performance with any political leader. While Ihave enjoyed the 
        bonus and pay adjustments, they occurred without a word. It's 
        as if it is always a surprise.''
    According to the 2008 OPM survey, only 51% of DHS executives 
understand how their salary increases were determined; 34% don't know. 
The responses with regard to performance awards were virtually 
identical. 36% had no discussion of their progress in a required mid-
year discussion with supervisors. In fairness, these results are not 
unusual; similar ones were reported for other agencies and departments.
    Transparency and clearly communicated standards are necessary to an 
employee's morale and ability to adequately do his or her job. The 
Senior Executives Association has continuing concerns about the pay and 
performance system at DHS and also at other agencies.
    Fortunately, the vacancy rate for SES positions at DHS is not 
uniform across the Department. Many components have a lower vacancy 
rate and are doing a much stronger job of managing their Senior 
Executive corps. A quick review of the 2008 Federal Human Capital 
Survey questions regarding supervisors shows a diversity of responses 
across the components of DHS.

Recommendations for Reform of the Senior Executive Service
    Due to many of the workforce challenges regarding the SES corps at 
DHS--problems that are endemic throughout the federal government--an 
overall reform of the Senior Executive Service is necessary to ensure 
that the career executive corps is attractive and promotes the 
recruitment and retention of the most qualified employees.
    Given the myriad of jobs and the substantial responsibilities 
exercised by the career federal executive corps, these almost 7,000 men 
and women are critical to high performing government and are key to 
implementing the political and management agenda of each agency and the 
Administration. These are the top career professionals in government, 
with an average of 26 years of experience, who obtained their positions 
on the basis of merit.
    For many years and several prior Administrations, utilization of 
the advice and creativity of the career SES corps has been steadily 
diminished. It has been politically fashionable to denigrate and 
mistrust the ``bureaucracy'' and to give less attention and compass to 
the career corps. The complex and critical work of the hundreds of 
separate Federal programs they run has frequently been underestimated 
and undervalued, often resulting in negative impacts on Administration 
initiatives and on the quality of services provided to the American 
public. Rather than being treated as the ``most valuable players'' in 
the Federal enterprise--which they truly are--they have been 
increasingly taken for granted and buried under layers of non-career 
appointees. This trend has generated serious problems in the past, most 
dramatically in FEMA's disastrous handling of Hurricane Katrina. If not 
reversed, this erosion of the salience of the career SES will become 
even more dangerous as the current corps ages and retires, recruitment 
becomes more difficult, and the nature and magnitude of the issues 
facing our nation grows exponentially in the coming years.To this end, 
the Senior Executives Association proposes several reforms to the SES, 
both at DHS and government-wide, that will restore its stature and 
allow its members to effectively and efficiently serve their agencies.

1. Restoration of Career Leadership
    Career Senior Executives have spent their careers in civil service 
and are committed to the mission of the federal government and their 
agencies. Years of neglect have lowered morale, but with the proper 
focus and respect, the career executive corps is ready and willing to 
step up and lead their agencies through the transition, implement new 
policies and programs and effectively serve the American people.
    The work of career executives is rated highly by appointees. In the 
Spring 2001 issue of the Brookings Administration journal, Governance, 
George C. Edwards wrote, ``[A]ccording to surveys of appointees ranging 
from the administration of Lyndon Johnson to the present, political 
appointees-regardless of party, ideology, or administration-find career 
executives both competent and responsive. `In interview after 
interview,'' observes Paul Light, ``presidential appointees celebrate 
the dedication of their bureaucrats.''
    The most recent data, from the Brookings Presidential Appointee 
Initiative, confirms that more than four out of five appointees found 
the career officials with whom they worked to be both responsive and 
competent. Only 25 percent of appointees found directing career 
employees to be a difficult task. Indeed, every other task about which 
appointees were asked was more difficult. More than a third of 
appointees, for example, found it hard to deal successfully with the 
White House.
    Given the transition and the critical issues facing the country, it 
is imperative that career leadership is given attention by Congress and 
the new Administration. Career executives will be the key to the 
continuity and expertise necessary to ensure critical programs and 
daily agency operations continue to function while there is a lack of 
political appointees in place. Career senior executives will also play 
a crucial role in overseeing the effective and proper use of the 
economic stimulus funds that will go to DHS and other federal agencies. 
To ensure that Senior Executives at DHS and across the government have 
the necessary support and tools to carry out their mission, the Senior 
Executives Association suggests the following reform:
    Consider placing high-performing career executives in Assistant 
Secretary for Administration and other key positions requiring long-
term experience at each agency, specifically, as Deputy or Chief Human 
Capital Officers, Chief Information Officers, Chief Financial Officers, 
and Chief Operating Officers. These positions are now reserved almost 
exclusively for political appointees, as is the position of Assistant 
Secretary for Administration, which was formerly held by senior career 
employees in cabinet departments. In only two departments--Justice and 
Transportation--do career Senior Executives now hold that position, as 
a result of a statutory requirement (at Justice, the Assistant Attorney 
General for Administration is also required to be held by a member of 
the competitive service). On May 14, 2008 the Homeland Security 
Department's acting Deputy Secretary Paul Schneider told the Senate 
Homeland Security and Governmental Affairs Committee that the 
department's highest human resources office should be held by a career 
official, not a political appointee, as is now the case.
    Deputy Secretary Schneider stated: ``The fact that by law it's a 
political appointee means that, for the most part, that person will 
leave on January 20. Having a career civil servant in that job--
especially. . .at this point in time--somebody that could carry over to 
the next administration would be absolutely essential. . .to improve 
national operations [in the] department.'' While this position is, by 
statute, restricted to a political appointee, many others throughout 
government are not, and career executives could be named to fill them.
    We make this recommendation because a) continuity in leadership and 
expertise during the transition from one Administration to another is 
needed and the need is not satisfied when a political appointee resigns 
and another takes his or her place, and b) relatively short-term 
political appointees have limited ability to accomplish long term 
agendas. Further, Administrations are not gaining the benefit they 
might from seasoned and accomplished career executives who know how to 
operate government programs and to pursue the agendas of their 
political leadership.

2. Reform the SES Pay and Performance Management System
    The current SES pay and performance management system has been in 
place for four full years of performance ratings and pay adjustments. 
There has now been sufficient time and experience to examine how well 
the system works. Congress has had the opportunity to review the SES 
system, identify problems and implement solutions. We believe the 
system needs to be fine tuned and modified to ensure that quality 
applicants will aspire to the SES and that those who are in the SES 
will want to stay. The large number of Senior Executives eligible to 
retire makes a review of the SES system even more imperative. Such a 
review will also yield valuable lessons learned which should inform 
your consideration of other pay for performance systems which are 
proliferating in the Federal government.
    In 2008 OPM conducted a survey of the SES. This survey was preceded 
by an SEA survey in 2006 that also covered concerns and opinions about 
the SES pay system, albeit in far greater detail. In a number of ways 
the two surveys complement each other and show that Senior Executives 
feel good about their jobs, but the results are more mixed when 
addressing the pay system.
    When SEA surveyed Senior Executives in 2006, one of the most 
telling findings was that 47% of those that responded believed that GS-
14 and GS-15 employees were losing interest in aspiring to SES 
positions. The 2008 OPM survey reported that only 50% of Senior 
Executives believed that the current SES pay and performance management 
system was helpful in recruiting qualified applicants for SES 
positions. GS-14's and 15's losing interest in aspiring to SES 
positions is a disturbing trend that is regularly reported to SEA and 
confirmed now by two survey results.
    In our opinion, there are several reasons for this unfortunate 
situation. First, SES annual pay increases have not kept up with GS 
increases over the past several years. This is true because increases 
in the Executive Schedule, which sets the caps for SES pay, have lagged 
behind GS increases. From 1994 to the present, if the EL-II pay rate 
had increased each year by the same percentage as GS pay in the 
Washington DC area, EL-II (the cap on SES pay in certified agencies) 
would now be $242,318, not $177,000. Second, in addition to the lack of 
locality-based pay adjustments, SES annual pay increases are entirely 
discretionary, irrespective of performance, creating the accurate 
perception that a new Senior Executive cannot rely on the receipt of 
annual comparability increases upon entry to the SES. Third, GS and 
alternate pay systems have become more generous with the result that 
today some GS-15 or equivalent employees make more than the Senior 
Executives they work for, particularly if the Senior Executive is new.
    While pay is an issue, we are well aware that pay is not a primary 
motivator of those in Federal service. What it does in this situation, 
however, is to give GS-14's and 15's pause. With SES positions come 
added responsibilities, added risk, and less time with families. This 
is especially true at DHS, where many SES jobs are viewed as ``24/7.''
    Many Senior Executives also express concerns about a distinct 
disconnect between ratings, pay adjustments and performance awards. The 
SEA survey found that many executives believe the connection between 
their performance ratings and pay adjustments were based on 
administrative decisions and budgetary constraints, not actual 
performance. Further, there was no connection between increased 
responsibilities and pay; of the 233 executives reporting increased 
responsibilities since the implementation of the new pay system, 191 
(82%) received no salary increase.
    To that end, SEA has several legislative remedies to propose. These 
are common sense solutions that directly address the concerns of Senior 
Executives and potential SES members.
    When the Senior Executive Service was created by the Civil Service 
Reform Act of 1978, the corps was designed to provide a careful balance 
of increased risk and increased rewards to the GS 16's, 17's and 18's 
who were to be asked to convert to the Service. Over time, that balance 
has been eroded. The centerpiece of our proposal consists of two 
provisions that would restore the balance of risk and reward so that 
the SES will be attractive to potential Senior Executives.
    First, we recommend that all Senior Executives rated as ``Fully 
Successful'' or better performance level receive at least some annual 
increase. In an October 31, 2006 memorandum regarding Certification of 
Performance Appraisal Systems for Senior Employees for Calendar Year 
2007, OPM Director Linda Springer expressed OPM's expectation that 
``senior employees who are at a pay level consistent with their current 
level of responsibilities and who receive an acceptable (``fully 
successful'' or better) rating should receive a pay increase.'' Agency 
discretion (as noted above), however, interferes with this outcome. In 
January 2008, Senior Executives rated ``Fully Successful'' in F.Y. 2007 
received an average 2.5% pay increase; contrast this with a GS employee 
in the Washington DC locality pay area, who received a 4.49% adjustment 
without regard to his or her performance rating. An annual guaranteed 
increase for executives who have performed successfully should be at 
least as much as the increase in the Executive Schedule plus the 
increase in locality pay for the geographic area in which the executive 
works. That would still, in most years, be below what GS employees 
receive.
    Second, performance awards should be included in a Senior 
Executive's ``high three'' in calculating his or her retirement 
annuity. We believe that this second provision would make the SES an 
attractive career goal for the best applicants and will help assure a 
high quality future SES. Also, it recognizes the reality that 
performance awards have become an integral part of the SES compensation 
system.

    3. Focus on Continuing Development and Training for Senior 
Executives
    Training and development for Senior Executive positions is most 
often provided in Candidate Development Programs (CDP's). Without 
regard to how well CDP's prepare new Senior Executives, there is a need 
for continuing development and training. That includes specific ``on-
boarding'' programs (which may include, for example, executive coaching 
and/or a mentor for the first year), as well as attention to activities 
which can keep a career executive up to date and revitalized throughout 
his or her time in the SES. Because 34% of DHS executives responding to 
OPM's 2008 survey of the SES have been members of the SES for 3 or less 
years, professional development is especially important as many 
executives face, in their first years, unexpected challenges for which 
they were unprepared.
    On November 7, 2008, Acting OPM Director Michael Hager issued a 
memorandum for Chief Human Capital Officers, emphasizing steps that 
agencies should take to ``broaden'' their SES members' experiences 
throughout government, in order that they might become more effective 
leaders. He noted that the original creation of the SES envisioned 
``broad careers,'' and that ``recent history has. . .proven the 
disadvantages for national security and disaster preparedness when 
leaders lack a Government-wide perspective or are not experienced in 
working across agency lines to respond to national threats or issues.
    Specifically, the memorandum urged agencies to offer developmental 
opportunities such as details or assignments to other major components 
within their departments, training, and education opportunities for SES 
members designated as ``National Security Professionals'' under 
Executive Order 13434. Issued on May 17, 2007, this Executive Order was 
meant to promote the development of federal employees in national 
security positions to ensure that deficiencies apparent in the handling 
of Hurricane Katrina were addressed.
    The Hager memorandum builds upon the idea of continuing development 
that should be a priority for all agencies and their career executives. 
Although OPM runs some training programs through the Federal Executive 
Institute, these are by no means mandatory or utilized throughout 
federal agencies. Senior Executives must use their own initiative to 
seek out training opportunities, but are often hampered by a lack of 
designated funds or an inability to take time away from their duties to 
do so. OPM acknowledges that ``ongoing development of current and 
potential executives is critical to their effective performance as 
leaders in an environment of constant change and advancing technology, 
as well as to enhancing organizational achievement.'' However, SEA 
questions whether this is truly a priority at DHS or other government 
agencies.
    In fact, in a 2007 US Citizen and Immigration Services (USCIS) 
Ombudsman Annual Report to Congress, it was found that training and 
leadership programs are pursued separately from development and 
retention needs and that the programs offered by the agency had no 
clear correlation to career development. The Annual Report went on to 
recommend ``a comprehensive merger of core job career paths with 
necessary training requirements--mandatory, technical, and leadership--
oriented to future needs and groups, as well as transparency from entry 
to executive levels.
    We have no information as to whether these recommendations have 
been implemented, not only at USCIS, but at other component parts of 
DHS. The OPM survey found that only 54% of DHS executives were 
satisfied with the developmental opportunities they receive; 23% 
disagreed that there are sufficient funds available for their job-
related development to maintain up-to-date skills; in fact, only 34% 
said that their developmental needs were even assessed.
    The lack of training and development related to a strategic plan is 
a problem that not only affects the preparedness and effectiveness of 
DHS, but has an impact on all agencies across the government. SEA 
recommends that a comprehensive review of the strategic plan of DHS and 
all agencies is needed to ensure that training and continuing 
development needs of the Senior Executive Service are being pursued and 
implemented. This includes assessing the funding given to implement 
OPM's new training directives.

Conclusion
    Many challenges remain that must be addressed at DHS and 
government-wide to ensure an effective Senior Executive Service. We 
encourage you to implement the reforms outlined above. The Senior 
Executives Association looks forward to working with you on these 
issues and serving as a resource on reforms to strengthen the SES.

    Mr. Carney. Thank you for your testimony.
    And I now recognize Mr. Stier to summarize his statement 
for 5 minutes.

  STATEMENT OF MAX STIER, PRESIDENT AND CEO, PARTNERSHIP FOR 
                         PUBLIC SERVICE

    Mr. Stier. Thank you very much, Chairman Carney, 
Congressman Bilirakis, members of the subcommittee. It is a 
great pleasure to be here and really a pleasure to see that you 
are focusing on these important issues.
    I go back to the 9/11 Commission, and I think they stated 
it best when they said that the quality of the people is more 
important than the quality of the wiring diagram. In this town 
you have a lot of attention paid to wiring diagrams and not 
enough to people issues.
    Even today you see a huge amount of energy focused on the 
question of do we need a separate department of food safety, 
should FEMA be in or out of DHS, but not enough again time on 
the issues that you have focused on here--people issues, which 
are absolutely essential to making any of this work.
    So the question today is where is DHS right now. As we have 
seen from the data from OPM, things have improved. You see 62 
percent of the DHS staff saying that they are satisfied with 
their jobs. You see numbers across the board moving up, and in 
fact DHS moved more than most any other agency.
    The flipside, though, is that they had a heck of a lot of 
distance to travel. And as much as they have moved, the numbers 
are, frankly, still not good enough. And I would point out 
three different things that highlight that to me most 
egregiously.
    The first--only 34 percent of DHS employees say that their 
leaders generate high level of motivation and commitment from 
them. That to me is a stunning number, and one that no one 
could be proud of.
    Second, if you looked at the career executive ranks, 72 
percent of the career executives left between fiscal year 2004 
and 2007. Nearly three-quarters of those executives left in 
that timeframe. That is, frankly, just scary.
    And then third and finally, you look and you see 300 
political appointees. Last I saw, you had one, the secretary, 
who has been confirmed by the Senate, and that is a major 
problem, to.
    So what can you do about this moving forward? And I would 
offer seven suggestions here. I can come up with more, if you 
want, but seven in the 5 minutes I have got.
    First of all I would have to re-imagine oversight. You look 
at the stimulus bill. Right now, you have got $350 million 
going into IGs, GAO. Truth be told, we need to make sure we get 
it right at the front end.
    You need oversight, but you need to make sure that you are 
actually investing in the people and government that are going 
to get the job done right and well to begin with.
    And the oversight has to be a different form of oversight. 
The oversight has to be one that is constructive, rather than 
punitive. And this hearing is an example of just what we really 
need.
    Secondly, we need better and more frequent data. When you 
listen to all the testimony here, you listen to what the 
opening statements had to say, we know now more about DHS 
because of the survey that the OPM is doing, but it is not 
being doing frequently enough.
    The law requires an annual survey. OPM actually only does 
it every other year. Agencies do it on those off years. And 
that doesn't work. We actually need OPM to do it every year, 
and we need that information to come out a lot faster.
    We are 6 months after those surveys were being done, and 
they still just this week they say they are going to make it 
public. We need that information as soon as possible to make it 
real-time relevant.
    And we need additional information. Survey is great, but 
Carol had a great idea, which I think is really important to 
their testimony. What about exit interviews? Let us really 
understand why it is that people are leaving.
    A lot of key pieces of information that we still don't 
understand. If you understand it, you will be able to do a 
better job, the agencies will be able to do a better job, and 
the American people will get better service.
    Number three, around learning and development, the one-DHS 
issue. We know one thing that is going to work, and that is 
rotational assignments. We see that in joint duty requirements 
in the military. We are seeing joint duty efforts now and the 
intelligence community.
    We need to invest more in making sure that people in 
government move around and government. They will understand the 
problems and other agencies. They will learn from their 
colleagues. That is something that needs to be ramped up. There 
are pilot programs that are in place. We need them to go to 
scale here now.
    Number four, leadership. What do our ``Best Places to Work 
At'' show us? The number one issue that would have the greatest 
impact on employee engagement is better management and 
leadership.
    And that is going to require investing in our managers and 
leaders in a way that has never happened before. We have 
programs like the DHS Fellows program, which are terrific, but 
we need to see more of them.
    Number five, hiring process broken in every which way. We 
need an applicant bill of rights that guarantee transparent, 
clear and easy process. And we need to take a look at the 
assessment processes, whether we are actually selecting the 
right talent.
    Number six, we need a review of the political appointees. 
You have heard it before. Why do you need 300 of them? The 
president deserves folks that he can bring in that enable him 
to push the policies that he was elected to represent, but he 
doesn't need 300 of them, and that has huge consequences not 
only during this transition period, but also for the career 
staff as well.
    And then finally, the last in seventh point I would make is 
we need to see a very different kind of relationship with 
unions and employee organizations. You can't be happy when you 
hear the testimony that you have just heard right now. No 
matter what the system is, the system will never work if 
employees don't trust it.
    And if the people who represent those employees are as 
unhappy as they are right now, you know something is not 
working.
    Now, my belief is the status quo can be improved upon, and 
I am confident that you and all these folks here will make that 
happen. Thank you very much.
    [The statement of Mr. Stier follows:]

                    Prepared Statement of Max Steir

    Chairman Carney, Representative Bilirakis, Members of the 
Subcommittee, thank you very much for the opportunity to appear before 
you today. I am Max Stier, President and CEO of the Partnership for 
Public Service, a nonpartisan, nonprofit organization dedicated to 
revitalizing the federal civil service by inspiring a new generation to 
serve and transforming the way the federal government works. We were 
honored to testify before this subcommittee in 2007 on the human 
capital challenges facing the Department of Homeland Security (DHS) and 
the morale of the department's employees. It is our pleasure to be back 
before you again today to comment on the current state of the 
department's workforce and to suggest areas which we believe would 
benefit most from this subcommittee's attention.
    The Partnership has two principal areas of focus. First, we work to 
inspire new talent to join federal service. Second, we work with 
government leaders to help transform government so that the best and 
brightest will enter, stay and succeed in meeting the challenges of our 
nation. That includes all aspects of how the federal government manages 
people, from attracting them to government, leading and engaging them, 
supporting their development and managing performance; in short, all 
the essential ingredients for creating, developing and maintaining a 
world-class workforce.

The Presidential Transition: A First for DHS
    You have charged the witnesses for today's hearing with 
recommending a way forward for the department's workforce. Your timing 
is ideal; the new administration has created new opportunities to 
improve on the hard work that has already gone into standing up the 
Department of Homeland Security.
    The Partnership for Public Service issued a report last year 
entitled ``Roadmap to Reform: A Management Framework for the Next 
Administration.'' The premise of our report is that the new 
administration's policy objectives cannot succeed unless our government 
has a talented and engaged federal workforce that is able to implement 
those policies. We suggest that the core components of an effective 
workforce include having the right talent; an engaged workforce; strong 
leadership; and, public support. This is true for government as a 
whole, and it is true for the agencies of government--including the 
Department of Homeland Security.
    The recent transfer of power from one presidential administration 
to another was a first for the department. Political transitions are a 
challenge for any federal agency as new political leaders and career 
professionals learn to work with each other to achieve the president's 
policy objectives, but the challenges for DHS are perhaps unique. Just 
over six years old, the department continues to experience the growing 
pains that resulted from its creation--the assemblage of 22 different 
federal organizations with different types of workforces, different 
cultures, different compensation systems and different goals into one 
department with a common mission to protect our homeland and 216,000 
employees.
    The Obama administration moved quickly to select a new secretary to 
lead this critically important department. Though the secretary was 
confirmed on January 20th, she remains essentially ``home alone''--
surrounded by senior staff who are in an ``acting'' capacity plus some 
holdovers from the previous administration. The department has almost 
300 political appointees; filling those slots requires an enormous 
investment of time and resources. And when those slots are vacant, it 
creates a vacuum in leadership and accountability at a department that 
is tasked with protecting our homeland 24 hours a day, 7 days a week. 
Further, as noted in the DHS Human Capital Strategic Plan for fiscal 
year 2009--2013, 72 percent of DHS career executives left the 
Department from October 2003 to September 20,2007, the highest rate of 
any Cabinet department.
    DHS is now the largest law enforcement agency in the federal 
government. Many department subcomponents brought a ``command and 
control``culture with them to DHS and a staff that is deployed largely 
in the field, rather than in Washington. In many ways, the department 
is still struggling to create a ``Team DHS'' culture.
    At the time of its creation, the Department of Homeland Security 
was granted major exemptions from Title 5 requirements, including in 
the areas of pay and performance. DHS designed a new human resources 
(HR) system that included a pay-banded approach to pay and was intended 
to be more sensitive to performance and the market for talent than the 
existing General Schedule system. DHS, however, also designed new 
approaches to labor-management relations and employee appeals which 
were challenged in court by employee unions. After years of fits and 
starts, Congress recently pulled the plug on the department's plans to 
move forward with its alternative personnel system.
    The continuing adjustment to the department's creation and the 
uncertainty over the future of the department's personnel system 
certainly contributed to the department's poor showing in the 
Partnership's 2005 and 2007 Best Places to Work in the Federal 
Government rankings, which measure employee satisfaction and 
engagement. When we testified in 2007, we highlighted the key drivers 
for employee satisfaction--or lack thereof--at DHS. Nearly two years 
later, we can report that in many ways, DHS appears to be headed in the 
right direction--but much work remains.

Measures Drive Change
    The old adage that ``what gets measured, gets changed'' still holds 
true. And when it comes to the federal workforce, not enough is getting 
fully measured. Data available on the state of the federal workforce is 
not systematically organized, evaluated or disseminated in a way that 
is meaningful to all of the key audiences.
    The value of indicator systems as an effective tool for driving 
reform has been widely documented. The Partnership has taken a step 
toward creating national indicators through our Best Places to Work in 
the Federal Government rankings, prepared in collaboration with 
American University's Institute for the Study of Public Policy 
Implementation. The Best Places rankings build upon data from OPM's 
Federal Human Capital Survey to provide a comprehensive assessment of 
employee satisfaction across the federal government's agencies and 
their subcomponents.
    Employee satisfaction and commitment are two of the necessary 
ingredients in developing high-performing organizations and attracting 
needed talent to meet our nation's challenges. The Best Places to Work 
rankings are a key step in recognizing the importance of employee 
satisfaction and ensuring that it is a top priority of government 
managers and leaders.
    Since the first rankings were released in 2003, they have helped 
create much-needed institutional incentives to focus on priority 
workforce issues and provided managers and leaders with a roadmap for 
boosting employee engagement.
    The rankings also provide Members of Congress and the general 
public with unprecedented insight into federal agencies and what the 
people who work in those agencies say about leadership, mission and 
effectiveness. Ideally, the Best Places rankings can aid Congress in 
fulfilling its oversight responsibilities by highlighting the federal 
government's high-performing agencies and raising a red flag when 
agencies suffer from conditions that lead to low employee engagement 
and, consequently, poor performance.

DHS: Moving in the Right Direction
    Mr. Chairman, in 2005 and again when we testified before you in 
2007, the Department of Homeland Security as a whole ranked second-to-
last--i.e., in 29th place--among large agencies in the Best Places to 
Work rankings. The department was the lowest ranked agency in eight out 
of ten workplace categories. Those ten categories are: employee skills/
mission match, leadership, balance, teamwork, pay and benefits, 
training and development, support for diversity, strategic management, 
performance-based rewards and advancement, and family-friendly culture 
and benefits.
    Our index scores are computed based on data that comes from federal 
employees themselves through their responses to OPM's Federal Human 
Capital Survey. The 2008 survey data are available for overall 
departments and we are in the process of preparing our 2009 Best Places 
rankings. Although the rankings will not be computed and released until 
later this spring, we are able to preview some important findings for 
the subcommittee drawn from the 2008 Federal Human Capital Survey.
    [Information follows:]

    In key questions that reflect overall employee satisfaction, DHS 
has improved:
        --Fifty-eight percent of those department employees surveyed 
        say they would recommend their organization as a good place to 
        work, up from 51 percent just two years ago;
        --Sixty-two percent say they are satisfied with their job, the 
        highest positive response ever from DHS employees;
        --Nearly 50 percent say they are satisfied with their 
        organization, up from 44 percent in 2006.
    Some additional good news is that these gains in employee 
satisfaction and engagement do not appear to be accidental. DHS has 
promoted a department-wide effort to constructively respond to the 
concerns and issues expressed by employees in previous surveys. For 
example, we understand that CBP conducted employee focus groups at 127 
sites around the country to better understand the reasons for employee 
dissatisfaction. Department-wide action plans are updated periodically 
with best practices such as the expansion of an ``Idea Factory'' blog 
started within the Transportation Security Administration to solicit, 
share, and implement employee suggestions. DHS should be commended for 
taking the results of the employee survey seriously and for its efforts 
to improve employee satisfaction and engagement.
    Within DHS, three workplace categories have been most closely 
related to overall satisfaction. They are, in order, leadership, 
employee skills/mission match, and strategic management.\1\ We expect, 
based on historical trends, that leadership will continue to be a big, 
and perhaps the biggest, driver of satisfaction at the department.
---------------------------------------------------------------------------
    \1\ This differs from the government-wide results, where work/life 
balance--not strategic management--was the third most influential 
driver of employee satisfaction in the 2007 rankings.
---------------------------------------------------------------------------
    Sixty-one percent of those surveyed in 2008 agreed that their 
immediate supervisor or team leader was doing a good job, up fi-om 57 
percent in 2006--that's good news and certainly movement in the right 
direction, though it is still far behind the private sector, where 74 
percent agreed that their supervisor or team leader was doing a good 
job. With respect to overall organizational leadership, however, the 
signals are mixed: just over 34 percent of employees agreed that 
leaders generate high levels of motivation and commitment in the 
workforce. This is a welcome improvement over the 27 percent who agreed 
with that statement in both 2004 and 2006. The unfortunate truth, 
though, is that an organization where only 34 percent feel that their 
leaders generate a motivated and committed workforce is an organization 
that is probably not performing up to its potential.

A Focus on Leadership
    As stated earlier in this testimony, leadership has been the 
leading driver of employee satisfaction at DHS. We also know that 
leadership is the area in which the federal government most lags the 
private sector. The DHS Fellows Program, once run by the Council for 
Excellence in Government but now at home with the Partnership, is a 
leadership development program for GS-14s and GS-15s at the department. 
The program was launched in 2007 and has proven to be a popular, and 
successful, professional development opportunity for DHS's next 
generation of leaders.
    The DHS Fellows are a tremendous source of information and insight. 
We believe many of their experiences suggest a way forward for the 
department and this subcommittee.
    Our Fellows tell us that one of the best values of this program is 
the opportunity it offers for them to learn about each others' 
organizations. Fellows come from all over the department; some come 
from field offices while others are stationed in Washington. The 
opportunity to come together through the Fellows Program helps build 
relationships and contribute to a more cohesive ``Team DHS'' culture.
    Exposing the Fellows to the other components of the department 
builds the connective tissue that will make for a stronger department 
overall. We know that Congress stands behind this concept, since it was 
Congress that passed a provision as part of the Post Katrina Emergency 
Management Reform Act \2\ to create a rotation program for department 
personnel to spend time working in other components of the department. 
Unfortunately, only small steps have been taken toward instituting a 
rotation program for DHS employees. One promising program is the 
Federal Law Enforcement Training Center's Pilot Leaders Program, which 
intends to encourage rotational assignments for supervisory staff.
---------------------------------------------------------------------------
    \2\ Title VI of P.L 109-295.
---------------------------------------------------------------------------
    It was also Congress that created the Senior Executive Service, 
which was conceived originally as a cadre of seasoned management 
professionals who could, and would, move to different posts throughout 
our government. In practice, there is far less rotation among agencies 
than the Congress envisioned--but the concept is sound. A well-rounded 
understanding of different agencies gives perspective and leads to 
better managers and better management.

Attracting and Retaining Needed Talent
    The federal government is an attractive employer. Our January 2009 
report, ``Great Expectations: What Students Want in an Employer and How 
Federal Agencies Can Deliver It,'' found that government/public service 
is the most popular industry choice out of 46 options among the 
undergraduates surveyed. We also found, however, that interest in 
government service is lower among groups government needs most, 
including students with technical and scientific majors.
    The Department of Homeland Security performs a critical mission on 
behalf of the American people. With little margin for error, it is 
essential that DHS employ enough of the right people with the right 
skills. From new college graduates to senior professionals and 
everywhere in between, DHS must be able to attract and recruit the best 
available talent to fulfill its mission. We also suggest that DHS must 
be able to recruit and retain a diverse workforce at all levels.
    Undoubtedly DHS has many of the same challenges as the rest of the 
federal government with regard to a hiring system that is frequently 
too slow, complex, and cumbersome and not applicant friendly. We also 
know, however, that parts of DHS have managed to achieve commendable 
results by overcoming some of these obstacles or in spite of them. For 
example, faced with the need to significantly increase staff levels, 
Customs and Border Protection (CBP) initiated an innovative and 
sustained recruitment effort that was able to attract over 3,500 
applicants a week from a diverse applicant pool and included special 
outreach to military veterans. As a result, and despite what has been 
described as a rigorous screening process, CBP has been able to meet a 
goal of hiring 6,000 new border patrol agents by the end of 2008. 
Further, veterans make up approximately 25 percent of workforce and 54 
percent of the workforce are minorities, with Hispanics accounting for 
half of the agent population. We are told that U.S. Immigration and 
Customs Enforcement (ICE) has also implemented a robust diversity 
recruitment effort and has established partnerships with a variety of 
colleges and universities towards that end.
    Similarly, the Transportation Security Administration (TSA) has 
maintained an aggressive recruiting and screening process that attracts 
over 300,000 applicants a year. In fiscal year 2008 alone, TSA made 
over 3,400 new hires. Clearly, DHS has benefited from a renewed 
interest in federal employment driven partly by the current downturn in 
national economic conditions but also by an increased appreciation for 
the value of public service.
    It will be important that DHS, along with the rest of the federal 
government, not squander this opportunity to fill its workforce needs 
with highly talented and motivated employees. Despite its impressive 
accomplishments, there are still examples of outmoded hiring processes 
or requirements within DHS and other federal departments and agencies. 
For example, a current announcement for the HR Director for the Federal 
Emergency Management Agency, a SES level position, calls for the 
submission of up to 14 pages of narrative, to be submitted ``on bond 
paper.''
    The Obama administration has ushered in an era of enthusiasm for 
government service not seen since the Kennedy years. Making the most of 
this interest in government employment adds a new sense of urgency to 
calls to streamline the current process for hiring new employees.
    We suggest that Congress pass legislation creating a ``Federal 
Applicant's Bill of Rights.'' An applicant bill of rights should 
provide that the hiring process must be understandable, transparent and 
timely. Job announcements should be written in plain English. 
Applicants should be able to apply online with a standard resume, and 
should be able to reach a real person at the agency to which they are 
applying if they have questions. Agencies should be required to make 
timely hiring decisions, and to notify applicants when a hire has been 
made. Our nation needs a Department of Homeland Security staffed with 
highly skilled, highly motivated professionals--and we cannot afford to 
let such talent slip away due to an unnecessarily lengthy and 
complicated hiring process.
    We also suggest that Rep. David Price's Roosevelt Scholars Act is 
another measure that could help the department--and the rest of the 
federal government--meet some of its critical hiring needs. This 
legislation was introduced in the 110th Congress and is expected to be 
introduced again shortly. It creates a graduate-level scholarship 
program in mission-critical fields in exchange for a federal service 
commitment. The military's ROTC program has been a tremendous source of 
leadership talent for our nation's armed forces; we believe the 
Roosevelt Scholars Act could become an analogous source of needed 
expertise for our civilian agencies.

Better Support and Oversight
    The Partnership believes that the way to better government is 
through people. No federal agency can succeed if it does not have 
enough of the right people with the right skills to get the job done. 
While we have long argued that more investment in the capacity of the 
federal workforce is desperately needed, passage of the 787 billion-
dollar stimulus package adds a new sense of urgency.
    Federal agencies--and more accurately, federal employees--are being 
asked to distribute billions of dollars in stimulus money as quickly as 
possible. While the Obama administration has committed to spending 350 
million dollars on oversight to ensure accountability and transparency, 
this approach fails to invest in the infrastructure of government that 
will minimize failures in the first place. It is like calling law 
enforcement for a smoking engine when what is really needed is a good 
mechanic. We need an aggressive plan to provide the personnel and tools 
necessary for our government departments and agencies to succeed, and a 
new paradigm that imagines the watchdog role as constructive rather 
than punitive. In other words, smart government should be about getting 
it right the first time, rather than discovering problems after the 
fact and attacking federal agencies, and their employees, for failing 
to do jobs they were never resourced to handle.
    The Department of Homeland Security is fortunate to have a 
workforce that is highly committed to its mission; over 90 percent of 
department employees surveyed agreed that the work they do is 
important. The challenge for Congress is to ensure that the department 
is provided with the personnel and resources to do its job well.
    We also highlight the importance of strong Chief Human Capital 
Officers and human resources professionals in federal departments and 
agencies. And of course, the Office of Personnel Management serves a 
vital policymaking role across government. Never has our government 
been so challenged, and never have these positions been more important.
    In 2007 and again in 2008, we interviewed Chief Human Capital 
Officers in large departments and agencies in a candid, not-for-
attribution conversation on the challenges they face and potential 
areas for improvement.
    When asked the extent to which HR staff members have the 
competencies needed to help their agency succeed in the future, 71 
percent of respondents said their staffs had needed competencies to 
only a ``limited``or ``moderate'' extent, with less than one-third 
saying their staffs had the right skills to a ``great'' or ``very 
great'' extent.
    ``[HR staff] are very comfortable in the transaction zone, but not 
so comfortable giving advice,'' said one CHCO. The shift away from 
transactional skills to a more consultative role for HR staff that 
requires strategic thinking was noted by many of our survey 
participants. Indeed, 48 percent of those surveyed said that HR staff 
is viewed by agency leadership as a business advisor``(versus a 
transaction manager) only to a ``limited'' or ``moderate'' extent.
    Tackling the workforce and management challenges facing the 
Department of Homeland Security requires a solid resources team with 
modern skills and tools. We encourage the subcommittee to continue its 
oversight of the DHS workforce and to pay special attention to the 
capacity of the human resources function in the department. The fact 
that DHS has improved to a significant extent from 2006 to 2008, as 
measured by the results the Federal Human Capital Survey, is an 
encouraging sign and indicates that the department's management team 
takes the survey data seriously and that early efforts to improve 
employee satisfaction and engagement are starting to pay off.

The Way Forward: Recommendations
    The Partnership offers the following recommendations regarding the 
Department of Homeland Security's personnel management:
        1. Better and more frequent data are essential for Congress to 
        conduct necessary oversight of the Department of Homeland 
        Security and how it is managing its workforce. We recommend 
        that the Office of Personnel Management conduct the Federal 
        Human Capital Survey on an annual basis, and release the data 
        as soon as its accuracy can be assured. This will enable the 
        department to make real-time course corrections where needed; 
        provide an annual benchmark capability by providing consistent 
        data across agency lines; and provide Congress a more timely 
        and informative oversight tool.
        2. Congress should encourage and support department efforts to 
        create learning and development opportunities for DHS 
        employees; in particular, more attention must be devoted to 
        creating a successful rotation program that will enable 
        employees to experience other DHS components and build a more 
        cohesive department.
        3. A key criterion for the success of any human capital 
        management system is the presence of highly competent managers, 
        supervisors, and HR professionals. Congress should ensure that 
        DHS has the resources, and is making the necessary investment, 
        to select, train, and effectively manage the individuals in 
        these key occupations.
        4. Congress should encourage and fund leadership enhancement 
        and leadership development programs for DHS employees. 
        Improving the skills of existing leaders and developing the 
        next generation of leaders will improve employee engagement and 
        organizational performance.
        5. Congress should ensure that the department has the resources 
        and personnel necessary to fulfill its mission, and should 
        encourage an oversight approach that is constructive and 
        designed to identify and fix potential problems before those 
        problems become failures.
        6. Congress should require the Department of Homeland Security, 
        and all federal agencies, to improve their hiring processes. A 
        ``Federal Applicant's Bill of Rights'' to make the hiring 
        process more understandable and timely would improve the 
        ability of the department to attract needed talent from diverse 
        talent pools. Congress should also pass the Roosevelt Scholars 
        Act to enable federal agencies, including DHS, to attract 
        mission-critical talent.
        7. Congress should review the number of positions filled by 
        political appointees in the Department of Homeland Security to 
        determine whether each of those positions is needed and whether 
        the department would benefit from filling some politically 
        appointed positions with career civil servants.

    Mr. Carney. Thank you for your testimony.
    I want to thank all the witnesses.
    And I will remind each member as we proceed through 
questioning that he or she will have 5 minutes to question the 
panel. And I now recognize myself for 5 minutes.
    This is for each one of you. If you had 30 seconds with the 
chief human capital officer at DHS or undersecretary, what 
would you guys recommend?
    Colleen?
    Ms. Kelley. I would recommend collective bargaining rights 
be granted immediately to TSOs.
    I would recommend that staffing be secured, resources be 
secured to ensure that the agencies in Homeland Security have 
the staff they need to do the mission they are trying to 
deliver on every day.
    And I would recommend that they look seriously at their 
management structure and at the message they send to their 
managers for delivery out to the workforce.
    I believe there are a lot of good managers in the 
Department of Homeland Security, but they will react to the 
tone that is set at the top. I think we are seeing a different 
tone now, but there is a lot of work that needs to be done to 
train them to be good managers, and then to hold them 
accountable to do just that.
    Mr. Carney. Thank you.
    Mr. Gage?
    Mr. Gage. Well, clearly--and I have had an opportunity to 
talk to the secretary, and we, too, are pushing to correct this 
terrible situation with part of the employees in the department 
not having Title 5 rights, not having the ability to collective 
bargaining, not having a voice at work.
    But I would also say, too, that bringing in people, who 
really know the mission of the agencies--for instance, the new 
appointment to FEMA is a welcome change, that we have somebody 
there with a background in emergency management.
    And I think moving with appointments like that would really 
be very good.
    I think, too, that you know when you look at all these 
agencies, they all have their own individual problems. 
Certainly, more communication with employees and more 
communication at each of the agencies--ICE, CIS, FEMA, 
especially Border Patrol--would really help in setting a new 
attitude at the department and a new way to move forward.
    Mr. Carney. Thank you.
    Carol?
    Ms. Bonosaro. I would recommend four things--certainly, to 
pay attention to what is causing these high vacancy rates, 
whether it is by conducting exit interviews or doing more with 
existing executives to find out what would encourage them to 
stay.
    Secondly, I would certainly at this point in the new 
administration do everything--I urge that everything possible 
be done to develop a clear working partnership and full 
communication between career executives and political 
appointees. They can't carry out the agenda if they don't know 
what it is and they aren't fully involved in it.
    Thirdly, I would urge that the pay and performance 
management system be examined to ensure that it is transparent 
and fair as it is operating there.
    And finally, I would urge that a sufficient amount of 
funding be provided to ensure that the developmental needs, the 
continuing revitalization needs be met for the current and 
future senior executives.
    Mr. Carney. Thank you.
    Mr. Stier?
    Mr. Stier. Well, I want that conversation with the 
secretary, not with the chief human capital officer, because, 
obviously, I would point him to testimony here.
    But the number one recommendation honestly I think, and 
from which all of this flows, is making people issues a 
priority. The tendency is for political leaders to focus on 
crisis management and policy development, but not on really 
what is going to make those things work, and that is the people 
inside the department.
    The secretary needs to make sure that people issues--they 
will say, yes, they are important, but the question is do they 
prioritize them. And they need to make sure that their 
leadership team understands in fact this is not an HR issue. 
This is a leadership issue.
    And they need to make sure that they then also have a 
mechanism of holding those folks accountable and there is some 
transparency with that.
    Mr. Carney. Thank you.
    Quickly, I want to make reference to the article that came 
out in the Post today about the process of hiring. You 
mentioned it in your testimony, Mr. Stier.
    Apparent that Linda Springer said that the system is 
inefficient by design for hiring people to work for the 
government. I mean this is not just DHS. This is across the 
government. How are you going to fix that?
    That is to you, Mr. Stier.
    Mr. Stier. All right. This is one that I would need more 
than 30 seconds on to begin with.
    I think the first way you fix it is you have to recognize 
that they are a set of problems. It is not just one issue. And 
if you fix one and not the others, you are going to get in 
trouble.
    So there has been a lot of you know attention focused on 
the speed of hiring. That is important, but if you hire poorly, 
it doesn't much matter if you hire quick or slow.
    So you have to make sure you know that you have all the 
different components fixed. And I think in part it starts from 
this notion of making people a priority and seeing it as a 
leadership issue.
    Right now, HR issues are viewed as transactional questions, 
not as strategic success questions. And that is a big issue. So 
how do you fix it?
    First, you recognize that you have to have leadership 
hearing about it. You have to have literally the top folks in 
the agencies saying, ``This has to be done. It is priority, and 
I am going to make sure that it is fixed.''
    I see the time is out, so you tell me if you want to keep 
running through this, but----
    Mr. Carney. Well----
    Mr. Stier. Yes.
    Mr. Carney. Let me address this. I will exercise my 
prerogative as chair here. Is it an OPM problem, or is it a 
government-wide problem?
    Mr. Stier. It is both. There are ways in which--I mean, 
honestly, there are ways. It is a decentralized hiring process. 
OPM cannot fix it on its own, but OPM can help. And so you 
actually really do need a collective effort. And again, it has 
to go beyond the human capital community to really get done.
    We did a process called Extreme Hiring Makeover, where we 
worked with three different agencies. Just to give an example, 
one agency--they had no idea what the hiring process was. We 
mapped it. It was 110 steps. Forty-five people touched every 
hire.
    And usually people say, ``Oh, my god, that is horrible,'' 
but there was worse. The worst was no one knew what that 
process was. And secondly, they got the wrong person at the end 
of the day, because they had no conversation between the hiring 
person who managed the process and the hiring manager who 
needed the person on the requirements at the front end.
    So that is an example of the kinds of issues you need to 
get your arms around to fix this.
    Mr. Carney. Thank you for your testimony, I think.
    The chair now recognizes Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    To follow up on your question, Mr. Stier, in your written 
testimony you noted that DHS has many of the same challenges as 
the rest of the federal government with regard to the hiring 
system. It is too slow, complex, cumbersome, and not applicant 
friendly.
    Has DHS or any of its components attempted to overcome 
these obstacles? If so, what results have these efforts 
yielded? What more can be done to prevent talented, motivated 
and committed people from slipping away due to the lengthy, 
complicated and bureaucratic federal hiring process?
    Mr. Stier. This is such an important issue. You have for 
the first time ever I think the American people looking to 
government in a very different way. President Obama said he 
wanted to make government cool again, and I think he has come a 
long way to doing that.
    But at the end of the day, if talented Americans run into 
the typical experience of the hiring process, they are going to 
get turned off in a way that is unhelpful for government and 
unhelpful for changing that sense of what government can 
actually accomplish.
    DHS, like other agencies, had made efforts. It is a big 
organization. They have tried to improve their process--
honestly, not enough, and not nearly enough has really occurred 
to argue that they have made significant strides.
    Part of the challenge here is that there is insufficient 
transparency, insufficient information. We talked about exit 
interviews. It wouldn't be all that hard to start collecting 
information agency by agency about what the applicant 
experience actually is like--you know questions about time to 
hire.
    There are real challenges about when you start and when you 
stop. But you can actually set something and create some 
transparency around that that would serve as a driver for 
changes in behavior inside the agencies.
    The starting place for that is really focusing on a small 
number of core measurements that you can start making that will 
drive changes in the agencies in the same way that we are 
starting to see more focused around employee morale issues.
    Real easy to hide, if you can--if you don't have the 
information, and right now that information is not available.
    So I would say the starting point really is what I offered 
before, an applicant bill of rights that makes a certain set of 
commitments and then requires agencies to collect and make 
public the information that will allow us to know whether those 
commitments are really being made.
    But truly to me this is a vital issue. Some folks see it as 
you know in the weeds. But at the end of the day, it has 
enormous implications not only for the talent government has, 
but also for the perception Americans have about their 
government.
    Mr. Bilirakis. Thank you.
    Ms. Kelley. If I could just add----
    Mr. Bilirakis. Sure.
    Ms. Kelley. I think there is a huge resource being untapped 
by both OPM and the agencies, and that is the unions who 
represent these employees. We represent the employees who have 
successfully run the gauntlet to get through the hiring process 
and to actually be a federal employee.
    And I think OPM should be putting out bargains, 
suggestions, best practices to agencies. I am hoping now with 
the nomination of an OPM Director, that we will see that happen 
that the unions will be in that conversation.
    We have a lot of ideas, suggestions, things to avoid in the 
future. And we want the hiring process be as streamlined and 
effective as possible so that the agencies don't have the 
vacancies that we see for the length of time that happened 
today.
    Mr. Bilirakis Ms. Kelley, I have a question for you.
    Sir, do you want to comment on this as well?
    Mr. Gage. Well, I would just like to say that you know when 
you focus on, say, procurement officers, now what everybody is 
looking for is we need more procurement officers, and we are 
looking to go outside the government to bring them in, when 
inside the government there are many candidates who could move 
up to those jobs and are a pool of employees who could satisfy 
it.
    So I don't think just looking outside the government is the 
whole answer here. I think there are plenty of people within 
the government, who would really look forward to the promotion 
and could do the job just as well.
    Mr. Bilirakis. Would anyone else like to comment?
    Okay. Ms. Kelly, yesterday I had the opportunity to meet 
with one of your members. One issue that was raised was the 
impact of border violence on CBPOs. I am concerned with reports 
that CBPOs do not have sufficient resources and equipment to 
protect themselves against the increasing violence occurring in 
Mexico.
    What resources do the CBPOs currently have, such as body 
armor, weapons, et cetera? Have CBPOs received additional 
training to help them respond to the threat posed by these 
Mexican drug cartels?
    And what can Congress do to help ensure that the men and 
women who work to protect our borders have the equipment they 
need to protect themselves and lawful travelers?
    Ms. Kelley. I appreciate the question and the fact that 
there is attention being paid to this. I can get you exact 
information as to the equipment that they have versus the 
equipment they need. I would like to make sure I have the 
accurate information from the ports of entry along the 
southwest border.
    Mr. Bilirakis. Please do.
    Ms. Kelley. I would be glad to get you that.
    As far as training, part of the problem, especially on the 
southwest border, is with staffing shortages down there. They 
are daily making decisions to run port operations or to do the 
training that they need, ongoing training, important training 
that I know Secretary Napolitano believes in, because we talked 
about this the other day.
    But because of staffing shortages, they are not able to do 
the training that is needed. And just a year ago I was in El 
Paso at a field hearing, and Chairman Carney was at the 
hearing.
    And we talked specifically about staffing shortages and the 
impact of that is having on not being able to do the job that 
they are trying to do, and especially in the situations you 
described, where you are talking about the safety of officers.
    And you need to make sure that there is always back up, 
that people are rested, that they are not working 16 day shifts 
back-to-back days in a row, and that is exactly what is 
happening because of the lack of staffing.
    So a big resource issue is the need for staffing across 
ports of entry across the country, but particularly on the 
southwest border. And I would be glad to give you specific 
numbers of recommendations we have made for those ports that 
we----
    Mr. Bilirakis. Thanks very much. Thank you.
    Mr. Carney. Thank you.
    The chair now recognizes the full chair of the committee, 
Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    And good to see our witnesses to this hearing.
    One of the issues we have referenced for quite a while is 
the number of different personnel systems for human capital 
systems operating within DHS. And if I look at TSA, I see where 
we have a number of systems operating within that one agency.
    Ms. Kelley and then Mr. Gage, have you had any experience 
with the different sort of systems operating within TSA?
    Ms. Kelley. Actually, Mr. Chairman, the TSOs experience 
those differences every day, because the basic employee rights 
that employees have throughout the rest of Homeland Security 
they do not have within the Transportation Security 
Administration.
    I can just give you a couple of examples. We had a TSO who 
was suspended for 5 days for not taking their break on time 
when it was scheduled. They took their break a half an hour 
later. The supervisor watched them work through their break, 
watched them take their break a half-hour later, never said a 
word to the TSO, and then suspended them for 5 days.
    Now, if TSOs had the same rights under Title 5 as other DHS 
employees have, that employee would have had a statutory right 
to challenge that adverse action and to have it reviewed by 
third party. That does not exist today for TSOs.
    We had another situation where an employee got their score 
on this PASS system, their pay system. And he got his score, 
and the supervisor changed his score before was submitted, that 
is impacting his pay.
    And under the current system in TSA, where they do not have 
the rights other DHS employees have, there was no recourse for 
this employee. Under Title 5, an evaluation cannot be changed 
like that, and it would be a--if it were.
    So those are just two examples, and I could give you a very 
long list. And this happens every day in airports around the 
country because of the differences in the systems just as you 
described.
    Mr. Thompson. Mr. Gage?
    Mr. Gage. Yes, clearly the biggest discrepancy is a lack of 
rights for TSOs compared to the rest of the department. It just 
makes no sense to me how Border Patrol agents, how ICE, how CIS 
can be afforded Title 5 rights, the right to collective 
bargaining, and TSOs not.
    And the pay process, where the whole department is under GS 
pay, yet they TSOs are into this PASS system. And it is a way, 
really, to hold down pay. I think it is the whole basis for the 
turnover and the lack of credibility, the frustration that TSOs 
have.
    And even within TSA, the managers are entitled to go to 
MSPB, should there be an issue against them that they wanted to 
contest, yet they TSOs have no such luxury, so I--not luxury, 
but right.
    I think standardization and consistency across this 
department is absolutely necessary. And I must say that you 
know even President Obama in a letter to me on October 20th saw 
that this was a huge problem within TSA and that the employees 
needed a voice at work and that he stands fully behind 
collective bargaining for TSOs.
    Mr. Thompson. Thank you very much.
    Mr. Chairman, I would like to have the components covered 
under Title 5 under Homeland Security entered into the record 
of this hearing.
    Mr. Carney. Without objection, so ordered.
    [The information follows:]

                                                       Breakdown of Components Covered by Title 5
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                            GOV'T-WIDE
                                                                                                                                             BENEFITS
                                                                          LABOR                                             HIRING,      PROGRAMS (e.g.,
COMPONENTS \1\         PAY         CLASSIFICATION     PERFORMANCE       MANAGEMENT    ADVERSE ACTIONS      APPEALS        EXAMINATION,     retirement,
                                                       MANAGEMENT     RELATIONS \2\                                      SELECTION AND        health
                                                                                                                           PLACEMENT      benefits, life
                                                                                                                                           ins., leave)
--------------------------------------------------------------------------------------------------------------------------------------------------------
5 U.S.C. HR     53,55...........  51..............  43.............  71.............  75.............  77.............  31.33..........  63, 81, 83, 84,
 AUTHORITIES                                                                                                                              etc.
(by Chapter)
--------------------------------------------------------------------------------------------------------------------------------------------------------
    DHS         Yes.............  Yes.............  Yes............  Yes............  Yes............  Yes............  Yes............  Yes
 Headquarters
--------------------------------------------------------------------------------------------------------------------------------------------------------
    CBP         Yes.............  Yes.............  Yes............  Yes............  Yes............  Yes............  Yes............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
    CIS         Yes.............  Yes.............  Yes............  Yes............  Yes............  Yes............  Yes............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
   FEMA         Yes.............  Yes.............  Yes............  Yes............  Yes............  Yes............  Yes............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
<SUP>Stafford</SUP> <SUP>Act</SUP>   Yes.............  Yes.............  Yes............  Yes............  No.............  No.............  No.............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
  FLETC         Yes.............  Yes.............  Yes............  Yes............  Yes............  Yes............  Yes............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
    ICE         Yes.............  Yes.............  Yes............  Yes............  Yes............  Yes............  Yes............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
    TSA         No..............  No..............  No.............  No.............  (see below) \4\  (see below) \4\  No \3\.........  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
   USCG         Yes.............  Yes.............  Yes............  Yes............  Yes............  Yes............  Yes............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
   USSS         Yes.............  Yes.............  Yes............  No \5\.........  Yes............  Yes............  Yes............  Yes
--------------------------------------------------------------------------------------------------------------------------------------------------------
<SUP>Uniformed</SUP>       No..............  No..............  Yes............  No \5\.........  Yes............  Yes............  Yes............  No \6\
 <SUP>Division</SUP> \<SUP>7</SUP>\
--------------------------------------------------------------------------------------------------------------------------------------------------------

<SUP>1</SUP> Members</SUP> of</SUP> uniformed</SUP> military</SUP> 
service,</SUP> USCG</SUP> academy</SUP> faculty,</SUP> administrative</SUP> 
law</SUP> judges,</SUP> presidential</SUP> appointees,</SUP> Senior</SUP> 
Executive</SUP> Service</SUP> and</SUP> office</SUP> of</SUP> inspector</SUP> 
general</SUP> excluded.</SUP> Pay</SUP> plans/schedules</SUP> with</SUP> 
less</SUP> than</SUP> 100</SUP> participants</SUP> are</SUP> not</SUP> 
included</SUP> in</SUP> this</SUP> chart</SUP> (e.g.,</SUP> USCG</SUP> 
academy</SUP> faculty).
2</SUP> Labor</SUP> Management</SUP> Relations</SUP> not</SUP> 
applicable</SUP> to</SUP> supervisors</SUP> or</SUP> management</SUP> 
officials.
3</SUP> The</SUP> Aviation</SUP> and</SUP> Transportation</SUP> 
Security</SUP> Act</SUP> (ATSA)</SUP> OF</SUP> 2001</SUP> placed</SUP> 
TSA</SUP> employees</SUP> under</SUP> the</SUP> FAA</SUP> personnel</SUP> 
management</SUP> system</SUP> (ATSA</SUP> Section</SUP> 114(n)</SUP> 
citing</SUP> Title</SUP> 49</SUP> Section</SUP> 40122).</SUP> 
Furthermore,</SUP> ATSA</SUP> provides</SUP> near</SUP> unfettered</SUP> 
authority</SUP> for</SUP> DHS</SUP> to</SUP> define</SUP> all</SUP> 
terms,</SUP> pay,</SUP> benefits,</SUP> and</SUP> conditions</SUP> of</SUP> 
employment</SUP> for</SUP> Transportation</SUP> Security</SUP> Officers</SUP> 
(TSOs,</SUP> formerly</SUP> ``Screener</SUP> Personnell''</SUP>; 
<SUP>TSA</SUP> Section</SUP> 111(d)).
4</SUP> Generally,</SUP> TSOs</SUP> are</SUP> not</SUP> covered</SUP> 
by</SUP> Title</SUP> 5</SUP> adverse</SUP> Actions</SUP> and</SUP> 
Appeals,</SUP> however,</SUP> TSOs</SUP> do</SUP> have</SUP> other</SUP> 
formal</SUP> and</SUP> informal</SUP> processes</SUP> to</SUP> protect</SUP> 
their</SUP> rights.</SUP> TSOs</SUP> who</SUP> believe</SUP> they</SUP> 
have</SUP> been</SUP> retaliated</SUP> against</SUP> for</SUP> 
whistleblowing</SUP> may</SUP> go</SUP> to</SUP> the</SUP> Office</SUP> 
of</SUP> Special</SUP> Counsel</SUP> and</SUP> the</SUP> Merit</SUP> 
Systems</SUP> Protection</SUP> Board.</SUP> They</SUP> have</SUP> full</SUP> 
access</SUP> to</SUP> federal</SUP> Equal</SUP> Employment</SUP> 
Opportunity</SUP> processes</SUP>; <SUP>may</SUP> appeal</SUP> adverse</SUP> 
personnel</SUP> actions</SUP> to</SUP> a</SUP> Disciplinary</SUP> 
Review</SUP> Board</SUP> at</SUP> TSA</SUP> Headquarters</SUP>; 
<SUP>and</SUP> can</SUP> take</SUP> grievances</SUP> to</SUP> Peer</SUP> 
Review</SUP> Panels</SUP> composed</SUP> of</SUP> three</SUP> peers</SUP> 
and</SUP> two</SUP> supervisors.</SUP> TSA</SUP> also</SUP> has</SUP> 
an</SUP> Integrated</SUP> Conflict</SUP> Management</SUP> System</SUP> 
providing</SUP> training</SUP> on</SUP> communication,</SUP> problem</SUP> 
solving</SUP> and</SUP> issue</SUP> resolution,</SUP> while</SUP> 
creating</SUP> processes</SUP> for</SUP> raising</SUP> issues.</SUP> 
Airports</SUP> have</SUP> Employee</SUP> Advisory</SUP> Councils</SUP> 
that</SUP> raise</SUP> and</SUP> discuss</SUP> issues</SUP> with</SUP> 
management.</SUP> The</SUP> National</SUP> Advisory</SUP> Council</SUP> 
of</SUP> TSOs</SUP> and</SUP> middle</SUP> level</SUP> airport</SUP> 
managers</SUP> meet</SUP> regularly</SUP> and</SUP> work</SUP> in</SUP> 
committees</SUP> to</SUP> develop</SUP> new</SUP> programs</SUP> 
supporting</SUP> field</SUP> personnel.
5</SUP> Excluded</SUP> by</SUP> Executive</SUP> Order</SUP> 1217</SUP> 
dated</SUP> November</SUP> 17,</SUP> 1979.
6</SUP> Employees</SUP> hired</SUP> prior</SUP> to</SUP> 1984</SUP> are</SUP> 
covered</SUP> under</SUP> the</SUP> DC</SUP> Police</SUP> and</SUP> 
Firefighters</SUP> Retirement</SUP> System.
7</SUP> Covered</SUP> under</SUP> DC</SUP> Code.
8</SUP> Columns</SUP> with</SUP> a</SUP> ``yes''</SUP> indicated</SUP> 
where</SUP> FEMA</SUP> has</SUP> chosen</SUP> to</SUP> apply</SUP> 
these</SUP> provisions</SUP> to</SUP> CORE</SUP> employees</SUP>; 
<SUP>Disaster</SUP> Assistance</SUP> Employees</SUP> (DAE)</SUP> are</SUP> 
excluded.

    </SUP>Mr. Thompson. Thank you.
    Mr. Carney. The chair now recognizes the gentleman from New 
Jersey, Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you.
    When it comes to the issue of our Homeland Security 
workforce, many of us have been outspoken about the fact that 
TSA employees, and in particular the transportation security 
officers, the TSOs, seem to get the short end of the stick when 
it comes to their rights and protection as federal government 
employees.
    In fact, in the last Congress I wrote to the TSA assistant 
secretary, Kip Hawley, who appeared before this committee, 
about the glaring lack of whistleblower protection for TSOs.
    It seemed clear, as it still does now, that these TSOs are 
the people on the ground, who witnessed firsthand every day the 
implementation of security procedures that we put in place. 
Their observations and information can be a very invaluable 
resource.
    But TSA has seemingly been more interested in silencing 
them in the interest of not being embarrassed than they are 
listening to their own employees. That is not a good idea.
    Furthermore, these TSOs don't have the right to do the same 
collective bargaining rights as do federal employees. We do 
know what happened in the past several years.
    The former president decided that if we ever sent through 
bargaining legislation or whistleblower protections, that he 
would veto it--clear and precise. He claimed that such rights 
would limit TSA's ability to perform its mission due to the 
need for workforce flexibilities and fears of strikes.
    Yet we know very specifically under Section 7106A(2)(d) 
that these are taken care of in already existing law, so there 
is no one trying to circumvent so that we don't protect 
Americans in their homes.
    So it is no wonder, though, then that the level of morale 
and retention--we have heard it from all of you--where the 
employees in the TSA are the lowest within the Department of 
Homeland Security, and I don't care what rating system you use, 
the last one or the one in 2006, their rating ranks among the 
lowest department in this criteria in the entire government.
    So literally, TSA employees are the lowest of the low 
within the entire federal government when it comes to morale 
and retention, yet we expect these folks to be the first and 
last line of defense against acts of terror. It is their job to 
present the next 9/11.
    But we won't even empower them with a real voice. We expect 
them, Mr. Chairman, to do the most with the least.
    So I ask Ms. Kelley and Mr. Gage specifically, so many DHS 
employees rightfully have collective bargaining rights and 
whistleblower protections, including those in the CBP, so why 
shouldn't TSA?
    And the second question is do you believe providing the 
TSOs screeners with these rights and protections would actually 
improve the security of our nation and the integrity of the 
TSA?
    Ms. Kelley?
    Ms. Kelley. Absolutely. I believe that TSA employees should 
have the same rights, protections and whistleblower protections 
as other employees in Homeland Security, including CBP.
    And without a doubt, I believe that providing TSOs with 
collective bargaining rights can only strengthen national 
security. These TSOs join TSA to provide security for our 
country at airports.
    And they need the ability to do their jobs without fear of 
reprisal, to know that they are doing the right thing for the 
taxpayers and the right thing for the country.
    They want to use their energy to focus on how to make the 
checkpoints and the baggage screening operations the most 
efficient possible and the safest possible.
    And the best way for them to be able to do that is to be 
given collective bargaining rights, as well as whistleblower 
rights, so that they can do their jobs and that we can tap into 
their ideas and energy for how to do the job better, because 
today none of that is done.
    It is not invited. It is not allowed. And it has created 
the work environment that we find them in today. And for the 
benefit of the security of our country, that needs to change.
    Mr. Pascrell. Mr. Gage?
    Thank you.
    Mr. Gage. Yes, Congressman. I just returned from the winter 
meeting of the AFL, and a resolution was passed by all the 
unions to support collective bargaining for TSOs.
    And the argument from all these unions, who had such a big 
part to play in 9/11, was that nowhere was their union, their 
ability to form a union, to have a union, that it influenced 
any of their work when it came to 9/11, the heroes, the EMTs, 
the police officers, the firefighters.
    And it is an insult, really, to the labor movement to say 
that somehow having the right to belong to union somehow 
affects national security.
    And I think having a secure, experienced workforce with the 
rules set, with transparency, with employees knowing they have 
a right to work, can only improve our security. And it is 
something that is long overdue.
    Mr. Pascrell. Mr. Chairman.
    Thank you.
    Mr. Chairman, I think every member of this committee should 
be asked to read Title 5. In Title 5 it is very, very, very 
clear that the president of the United States in an emergency 
situation can issue an executive order, so the baloney that we 
have been listening to for too many years, we must address that 
factually so that we can get over this hump and deal with a 
major part of the workforce in the Homeland Security.
    And I hope we have a second round. I want to get back into 
this. Thank you.
    Mr. Carney. Thank you.
    Will start the second round right now, actually.
    Ms. Bonosaro, let us talk about the SES for a moment. I was 
kind of disturbed by Mr. Stier's statistics on 72 percent of 
the SESs retired or resigned over the last few years.
    Without the benefit of an exit survey, but based on your 
experience, what can you attribute this loss to?
    Ms. Bonosaro. Well, first of all, obviously, and a good 
number of these--some number unknown at DHS that these 
executives were eligible to retire, and it was time.
    I will say, too, though, that clearly over time, as I 
indicated in my testimony, the stature of the SES has been 
diminished. And one of the things that keeps executives on the 
job is to be excited and interested and committed to what is 
being done.
    I think many of them right now are certainly in that 
position and looking forward to contributing to the new 
policies and programs that are being put in place.
    So to the degree that they were locked out of those 
opportunities, that certainly gives them some impetus to 
retire.
    I think, too, certainly the pay and performance management 
system that was instituted 4 or 5 years ago has not been 
terribly motivational, frankly. There have been a lot of 
problems with it, and that doesn't encourage someone, 
certainly, to stay on the job.
    And finally, I think there is no question that there is 
burnout at DHS. A number of executives that I have known 
personally who have left, it just has not been unusual for them 
to work 7-day weeks.
    One of the things, by the way--I would just like to turn 
back to, if I may--in your discussion or your consideration of 
TSA, the executives in TSA are not part of the regular Senior 
Executive Service either.
    So I think if there is any consideration of dealing with 
personnel law with regard to TSA, it would be worth taking a 
look at whether they should not be folded into the regular SES.
    Mr. Carney. What is their status, if they are not?
    Ms. Bonosaro. I can't tell you the precise differences. I 
will be happy to follow up with the committee and give you 
information on how it differs, but they are, as far as I know, 
not eligible, for example, for a presidential rank awards.
    That is certainly one difference, which they are pretty 
rare, it is true, but it is a wonderful honor, and it is 
something to aspire to.
    I know their status is different. I can't tell you 
precisely how right now.
    Mr. Carney. I appreciate that. We will get to the bottom of 
that. I think that surprised everybody up here.
    Ms. Kelley, can you shed any light on that? Do you----
    Ms. Kelley. I am making a note, because that is news to me 
also.
    Mr. Carney. Mr. Gage?
    Mr. Stier? Do--yes?
    Mr. Stier. The comparison point for the rest of the 
government is 48 percent in that same timeframe turnover, so it 
is quite dramatically a lot higher at DHS. And you know there 
are lots of reasons, none of them good.
    And it is also a problem that you are seeing that same kind 
of turnover across government at that level. And so we need to 
make some changes about that.
    Part of that, even when people are retirement eligible, the 
question is you know can you motivate them to still want to be 
there.
    Mr. Carney. Right. Thank you.
    I have no further questions at this time.
    Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    This is to Mr. Stier and Mrs. Bonosaro.
    As you know, the Department is currently operating out of 
more than 70 buildings and 40 locations throughout the 
metropolitan D.C. area, although the department is actively 
engaged in creating a one-DHS culture.
    The lack of centralized headquarters puts a strain on its 
operational and organizational capabilities. How critical is it 
for any agency, and in particular DHS, to have a centralized 
and secure headquarters facility?
    And how would a consolidation of the department's 
headquarters at the Saint Elizabeth's ancampus improve employee 
morale and performance capabilities?
    Whoever would like to go first would be fine.
    Mr. Stier. I think that you know clearly having a 
headquarters, you go to the--you know the headquarters on 
Nebraska Avenue, it is a you know not the greatest physical 
installation. So real headquarters I think certainly does 
matter.
    I would argue, though, that this is yet another 
representation of the challenge of you know focusing, if not 
wiring diagram, on the physical asset rather than some other 
issues, which are, frankly, I think even more important.
    So making sure that we actually have an investment in the 
technology and the communication opportunities that allow 
people, no matter where they are--even if you have one 
headquarters here, you are going to have you know DHS people 
across the country.
    You need to figure out ways that you are actually going to 
support communication across the entire network of people that 
are out there, make sure that you actually have an investment 
again in the rotation all opportunities.
    And that requires staffing levels--the military plusses up 
their staffing requirements because they know that they are 
going to ensure that, whether it is rotational or educational 
assignments, that those things are going to exist with their 
folks.
    You know Chairman Carney is probably well aware of that. 
That model, what the military does, is something we ought to 
see in the civilian work force. If you really want people to 
give of their best, you have to invest in them. And I think 
that to me that is the kind of focus that I would love to see.
    Great to have the physical headquarters, but there are, 
frankly, I think other things that are even more important.
    Mr. Bilirakis. More pressing.
    Mr. Stier. Yes.
    Mr. Bilirakis. Okay.
    Ms. Bonosaro. Yes, I agree with Mr. Stier. I think the 
issue, obviously, is the collaboration and cooperation bringing 
those component agencies together.
    You know people have observed that it took the Department 
of Defense, when it came together, 25 years to really coalesce 
and behave like a department, so to speak.
    So I think this is to some degree a long haul problem, but 
I agree with Mr. Stier that much of what needs to be done 
really has to focus on the collaboration and cooperation and 
the building site is but one part of that.
    Mr. Bilirakis. Thank you.
    Ms. Kelley, in fiscal year 2007, CBP hired 2,156 new Custom 
and Border Protection Officers for a net increase of 648 CBPOs. 
This indicates a high level of attrition.
    Are you aware whether these departing CBPOs are moving to 
other jobs within CBP, to another component within the 
Department, or leaving the Department altogether?
    And if these CBPOs are moving to other components, which 
ones? And what is it about the components that make them more 
attractive than the CBP?
    Ms. Kelley. Well, again, without exit interviews or you 
know hard data, I can tell you anecdotally, because I talked to 
many of our officers as they are leaving or to their chapters 
after they have left. And it falls into a couple of categories.
    Now, back in 2007 one of the primary reasons was they were 
leaving to go to state and local law enforcement agencies that 
provided them with the law enforcement officer retirement, 
which did not exist in 2007. So I believe that Congress' action 
on that this past year will have an impact.
    But I also know that many left because of their feeling 
that they were not given the tools and resources to do the job, 
that their management structure did not allow them, work with 
them or allow them to implement ideas they had about how to 
make the ports safer.
    There is a very top down structure in Customs and Border 
Protection, and there was a time about 8 years ago when NTEU 
worked very closely with at the time it was called partnership 
with the U.S. Customs Service. And we were able to do a lot of 
things that really helped CBP to be effective and to help 
officers to be more effective.
    That work has really all ceased, and I am hoping it is 
going to start up again and that we are going to see in the 
future the recognition that these front-line officers have a 
lot of really good ideas about how to do the work better and 
that we are going to see that tapped into. That will keep them 
at CBP, and it will help them to stay.
    But for the moment a lot of it is about leadership. Now we 
have new leadership. And you know so I think we are going to 
see some changes there.
    But it is not a work environment that officers feel like 
they can be successful or that the work is valued and 
appreciated. So in large part that is why they leave.
    And most of them are not within department. I didn't answer 
that question. Some go to other pieces of DHS or other federal 
agencies, but I would say that is the lowest number.
    Most of them left because they could get in law enforcement 
officer retirement elsewhere, and they were tired of waiting, 
or just because of the tone and attitude of management and them 
feeling that they weren't valued and respected.
    Mr. Bilirakis. Very good. Thank you very much.
    Mr. Carney. Thank you.
    The chair now recognizes the gentleman from Mississippi for 
5 minutes. No? Then we will recognize Mr. Pascrell for 5 
minutes.
    Mr. Pascrell. The argument about shutting down airports is 
many times presented as to why we can't allow collective 
bargaining rights to TSOs.
    Has providing collective bargaining rights diminished the 
operational effectiveness of those 54,000 in CBP or the Border 
Patrol, in your estimation? Do we worry about the fact that 
there will be--someday they will all walk off this and into the 
wildwood and then we will have no protection on our borders 
these? Would you respond to that--anybody?
    Ms. Kelley. Absolutely, positively not. It is not an issue. 
I mean it has never happened. It would never be a factor.
    Mr. Pascrell. Well, why should it be an issue for those 
protecting the border as compared to those that are in our 
airports and facsimile?
    Ms. Kelley. In my view there is no reason for any 
difference at all, for any distinction whatsoever. They all 
provide security to our country in different ways in different 
places, airports versus the land border crossings versus the 
seaports.
    But I know of not one reason that is valid that should deny 
them those rights.
    Mr. Gage. You know I just want to say that our Border 
Patrol is very highly organized. And if I were to call a strike 
among our dedicated Border Patrol agents, I don't think I would 
be sitting here much longer.
    They look at their dedication to their country and their 
jobs in a way that is really different from other employees in 
the private sector, so I don't think there is any real or even 
realistically imagined threat that TSOs, for instance, are 
suddenly going to shut down the airports and go on a strike or 
a job action, nor would it be lawful in any way for our union 
to participate or to call for.
    Ms. Kelley. If I could just add, as John said, I mean the 
fact is federal employees cannot strike. Federal employees in 
any agency that have collective bargaining rights have no right 
to strike.
    Mr. Pascrell. You don't have the legal right to strike, do 
you?
    Ms. Kelley. No, we do not.
    Mr. Pascrell. So this is a very empty argument, very empty 
argument against having collective bargaining rights and the 
protecting of those people who are whistleblowers. This is 
something that we have had to swallow for a number of years 
now.
    We should address it head-on, Mr. Chairman, and Mr. 
Chairman, as quickly and possibly, because it doesn't make 
logic. It doesn't make any sense to me.
    And I think is one way to include the morale within the 
folks that are on the line every day. It is like almost taking 
bargaining rights away from cops and firefighters. That would 
be pretty stupid, it would seem to me, because the governor has 
powers, the mayor has powers, and the president of the United 
States under Title 5 has the power. It is illegal for those 
people to strike.
    Thank you very much, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Pascrell.
    Does anybody else have any more questions?
    Hearing no more questions, I want to thank the witnesses 
for their very valuable testimony today.
    First of all, without objection, I submit for the record a 
document from the National Academy of Public Administration 
addressing best practices for the 2009 presidential transition, 
including analysis of the DHS workforce.
    So ordered.
    [The information follows:

                        STATEMENT FOR THE RECORD

               National Academy of Public Administration

                    Presidential Transition Study on

                  The Department of Homeland Security

                     Committee on Homeland Security

Subcommittee on Management, Investigations, and OversightUnited States 
                        House of Representatives

                         Doris Hausser, Fellow

               National Academy of Public Administration

                             March 5, 2009

    Thank you for inviting the National Academy of Public 
Administration to submit a statement for the record on the best 
practices for the 2009 Presidential Transition. I served as a member of 
the Panel that developed the Academy's June 2008 report that assessed 
the Department of Homeland Security's (DHS') executive profile, its 
transition training, and the department's plans for the 2009 
Presidential Transition. Many of the issues and recommendations 
outlined in that report apply to other departments and agencies, as 
well as DHS, especially those with homeland security responsibilities.
    The Presidential Transition of 2009 was the first major transition 
since ``9/11.'' As we point out in our report, recent history 
demonstrates that political transitions present an opportunity for 
terrorists to take advantage of real or perceived weaknesses in a 
nation's ability to detect, deter, prevent or respond to attacks. The 
final report of the 9/11 Commission raised concerns about the impact of 
future transitions on the government's ability to deal with terrorism. 
Owing in part to the delayed resolution of the 2000 election, the 
incoming Bush administration did not have its deputy Cabinet officials 
in place until Spring 2001 or its sub-Cabinet officials in place until 
that summer. Historically, getting the Presidential team in position 
has been a slow process. The Commission strongly pushed for changes to 
the process so that the Nation is not left vulnerable to these types of 
delays in a post-9/11 world. During a transition, DHS must retain the 
ability to respond quickly to both man-made and natural disasters.
    In light of these issues, Congress and DHS asked the Academy to 
assess DHS' executive profile, study its transition training, and 
review its plans for the 2009 Presidential transition. Our June report 
was the result of that request.
    The lessons learned from this work can be--and in some cases were--
applied to other federal departments and agencies. For example, the 
Academy Panel assessed DHS' allocation of executives between career and 
political appointees and compared it with other departments. As of 
March 20, 2008, 13 percent of DHS' executives were political 
appointees--about average for all federal departments. The percentage 
of all executives who were political appointees ranged from 9 percent 
at the Department of Veterans Affairs to 35 percent at the Department 
of State. But the Academy Panel also noted that 30 of the top 54 
executive positions, or 56 percent at DHS were filled by political 
appointees. Large percentages of other departments' top executives were 
also political--this includes 49 percent at Treasury, 59 percent at 
Justice and Defense, and 66 percent at the Department of State. 
Overall, the Academy Panel believes that efforts need to be made to 
reduce the number of political appointees, specifically in the DHS 
security and emergency management environment, so that these positions 
can be filled with career executives who will learn the job over time, 
versus a non-career appointee with a much shorter tenure. At DHS, the 
Academy Panel recommended that non-career headquarters deputy 
officials, FEMA regional administrators and other officials be career 
executives.
    Another part of the Academy's DHS study compared DHS' transition 
training programs with those of similarly structured Cabinet-level 
agencies. The Academy Panel concluded that DHS' transition training and 
development efforts were consistent with executive development programs 
in most federal agencies and that the department has a balanced set of 
transition-specific training programs underway. When implemented, these 
should have helped executives prepare to meet their homeland security 
responsibilities during transition. As of our report date, DHS was well 
along in its transition training especially given that it is a young 
agency with a critical national mission and going through its first 
Presidential transition. The Academy Panel believes other departments 
could benefit from learning about DHS' transition training.
    Finally, the Academy Panel reviewed DHS' transition planning, and 
the report laid out a series of actions that were tailored to 
Presidential transition timeframes. Specifically:
        <bullet> Before the national party conventions. DHS was to have 
        completed, updated and executed its transition plans; 
        identified key operational executive positions; ensured that 
        training and joint exercises had begun and filled vacant 
        executive positions.
        <bullet> From the national party conventions to the election. 
        Consistent with the recommendations of the 9/11 Commission and 
        ``Sense of the Senate'' provisions, DHS was to have worked with 
        Executive Branch agencies and Congress to reach out to the 
        Presidential candidates to identify potential homeland security 
        transition team members and help them obtain security 
        clearances by Election Day.
        <bullet> From the election to the inauguration. DHS was to have 
        worked with the incoming administration, the Executive Branch 
        and Congress to ensure that the new Secretary of Homeland 
        Security was sworn in on Inauguration Day; that key executives 
        were identified and voted on by the Senate as quickly as 
        possible, recognizing that any day a critical position is 
        vacant is a ``gap'' in our homeland security coverage; and that 
        transition training and joint exercises were provided to 
        executive appointees and nominees.
        <bullet> Following Inauguration Day. DHS should continue 
        training of new appointees, nominees and careerists to build 
        trust and operational performance, and reexamine current 
        executive positions and allocations to support administration 
        priorities. Within the first six months of the new 
        administration, DHS should conduct a ``capstone'' scenario 
        exercise to evaluate the effectiveness of transition planning, 
        training and overall operational readiness.
    DHS did address these recommendations. In June, it appointed 
retired Coast Guard Admiral John Acton as a full-time transition 
director who reports directly to the Deputy Under Secretary for 
Management. DHS completed a comprehensive plan for all facets of the 
transition that focused on several areas:
        <bullet> Ensuring that management processes are in place and 
        memorialized in policies and procedures;
        <bullet> Concentrating on knowledge retention for current 
        executives and knowledge transfer to the next administration's 
        executives;
        <bullet> Conducting a series of seminars, training sessions, 
        and exercises to make sure current leadership is trained in 
        incident response, as well as positioning the new leaders for 
        these roles; and
        <bullet> Focusing on the deputy positions in each office and 
        component to make sure they understand transition issues.
    In addition, DHS collaborated with partners such as the Departments 
of Transportation, Defense, State, and Health and Human Services; state 
and local governments; and with private industry. Joint training and 
exercise opportunities were actively coordinated. Also, the Academy 
understands that OMB hosted Agency Transition Coordination meetings, 
which afforded an ideal opportunity to enhance collaboration among the 
federal departments and agencies.
    Many of the Academy Panel recommendations for DHS also applied to 
other federal departments such as the appointment of a transition 
director, development of a comprehensive transition plan, 
identification of critical non-career positions, and transition 
training. The report noted that to the greatest extent possible, 
incoming DHS leadership--including the Secretary and key staff--must be 
in place on Inauguration Day or shortly thereafter. Key leadership 
positions at other federal departments, especially those with homeland 
security responsibilities, must also be filled quickly. This requires 
the support and cooperation of federal agencies with background check 
and clearance responsibilities, as well as the Congress given its 
confirmation role and responsibilities. The Academy Panel believes that 
all federal departments and agencies need to address the issues as 
appropriate that are presented in our DHS report.
    With respect to lessons learned, we recognize that DHS proceeded in 
a timely manner to plan for and begin its transition initiative using a 
five-pronged approach which included: updating the order of succession 
for the Secretary, all headquarters offices and operating components; 
assessing critical positions and managing succession risks; working 
with an external partner to establish interagency relations mapping and 
ensure knowledge transfer through leadership development; operational 
training with stakeholders; examining and identifying best practices of 
other transition efforts; and developing a series of transition 
guidance materials Despite this approach, however there is much more 
work to be done.&e strongly recommend that DHS continue to monitor 
transition staffing levels beyond the post-inauguration period until 
approximately 80% of key positions are filled. ``Additionally, DHS's 
decision to identify and appoint an experienced, full-time transition 
officer who has accountability for the mechanics and follow-through for 
the transition process is seen as a very positive force. The Transition 
Officer and the Academy presented the NAPA report and discussed overall 
transition issues at the leadership conference in Kansas City for the 
U.S. Citizenship and Immigration Services. We do not have knowledge of 
whether there were similar briefings out in the field, but believe it 
is a practice worth exporting to other operating units.
    Thank you for the opportunity to submit this statement for the 
record. We also offer the ``Report of the Panel of the National 
Academy, Addressing the 2009 Presidential Transition at the Department 
of Homeland Security,'' dated June 2008 for the record.

    Mr. Carney. Okay. Now I want to thank the witnesses again 
for their testimony and the members for their questions. I 
think we have opened up a nice dialogue here that we really 
need to pursue further down a number of avenues.
    We may have some further questions, and we will ask you for 
your written testimony. And please do so expeditiously, if you 
get a request for them.
    This committee now stands adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security:

                    Responses from Colleen M. Kelley

    Question 1.: In light of the recent OPM 2008 Federal Human Capital 
Survey \1\ and the FY09--FY13 DHS Human Capital Strategic \2\ Plan what 
steps do you see that the Department of Homeland Security is taking to 
shore up recruitment, hiring and retention practices?
---------------------------------------------------------------------------
    \1\ See pp. 4--24.
    \2\ ``Unparalleled Mission. . . Unparalleled Talent. . . Where 
People People Want To Work, U.S. Department of Homeland Security Human 
Capital Strategic Plan Fiscal Years 2009--2013. Homeland Security. (See 
committee file.)
---------------------------------------------------------------------------
        <bullet> If you are not aware of any steps, what do you 
        recommend?
        <bullet> Can the Department take any best practices from other 
        peers in the Federal Government?
    NTEU answer: NTEU represents two employee groups at DHS--Customs 
and Border Protection Officers and Transportation Security Officers, so 
my remarks will center on those two groups.
    Customs and Border Protection has been helped in its recruitment 
hiring and retention practices by passage last year of enhanced 
retirement benefits for CBPOs. On July 6, 2008, the Congressionally-
mandated CBP Officer law enforcement enhanced retirement benefit 
program went into effect. NTEU members commend the Committee on its 
forethought and perseverance in enacting and funding this vital 
legislation. Nothing has had a more positive effect on the morale of 
the CBP Officer. Now that CBP Officers are granted the same retirement 
benefit that most federal law enforcement officers have, it removes a 
powerful incentive for CBP officers to transfer to other federal law 
enforcement postions. Extending this benefit to CBP Seized Property 
Specialists will have the same effect on that position's recruitment 
and retention efforts.
    Another step that DHS can take is to fully implement retention 
programs that it already has the authority to implement such as the 
Student Loan Repayment Program. Section 5379 of title 5, United States 
Code, authorizes federal agencies to establish a student loan repayment 
program for federal employees. The purpose of this law is to provide a 
tool for federal agencies to attract and retain well-qualified, highly 
motivated employees who otherwise might decline or leave federal 
employment.
    For example, fully implementing the student loan repayment would 
greatly help with the retention of highly skilled CBP Customs 
attorneys. Because of the slow implementation of the student loan 
repayment program, approximately 60% of the staff has left the agency 
in the past decade, with most departing within the last five years. 
Many new employees who start their career at DHS leave after a couple 
of years because they cannot afford the monthly payments for their 
student loans.
    According to a survey of professional staff in one of DHS' 
agencies, among the employees with student loans, the average total 
debt was approximately $80,000--with one new staff person owing 
$176,000. The resulting loss of institutional knowledge, combined with 
the steep learning curve, has placed a severe hardship on the office, 
its budget, and the public.
    In addition, NTEU has negotiated a Memorandum of Understanding 
(MOU) addressing CBP's Student Loan Repayment Program. The Program is 
designed to assist CBP in recruiting and retaining employees in 
difficult-to-fill positions. Under the MOU student loan repayments may 
be made up to a maximum of $10,000 per calendar year and up to a 
maximum per employee of $60,000. NTEU negotiated criteria that CBP must 
consider in making student loan repayment decisions in addition to a 
requirement that CBP provide a detailed written explanation to support 
its loan repayment decisions. A joint NTEU-CBP workgroup will meet bi-
annually to review the operation of the Program including CBP's loan 
repayment determinations. Yet the program has not been implemented. 
NTEU has requested an explanation from CBP as to the delay in 
implementing the program.
    As for TSA, we have seen no actions that would favorably affect 
recruiting, hiring and retention. We feel that HR 1881 will go a long 
way toward helping these areas, and we thank you for signing on to that 
bill.
    There are many flexibilities within the government that can be used 
in recruiting, hiring and retaining employees. For instance, there are 
both recruitment bonuses and retention bonuses allowed within the 
structure of the General Schedule. There is relocation assistance. 
There is a student loan repayment program. Flexitime schedules could be 
used. Some of these have been used successfully by other agencies and 
the Department could review their potential use at DHS as well.

    Question 2.: According to the most recent OPM Human Capital Survey, 
51 percent of Department of Homeland Security employees feel they do 
not have sufficient information to do their jobs.
        <bullet> What steps are being taken to ensure supervisors are 
        aware of employee needs?
        <bullet> Further, what steps are being taken to hold 
        supervisors accountable for providing information to their 
        employees?
        <bullet> What internal processes are in place for DHS employees 
        to anonymously inform supervisors of problems they face?
        <bullet> Is there a good effort afoot elsewhere in the Federal 
        government to hold the supervisors accountable to listening and 
        developing their employees?
    NTEU answer: At TSA, supervisors routinely are given very little 
information themselves, so there is no system of providing employees 
with information necessary to do their jobs well. At CBP, NTEU employee 
representatives have some avenues to make supervisors aware of employee 
needs. NTEU is unaware of steps to hold supervisors accountable for 
providing information to their employees except through the negotiated 
contract. NTEU is unaware of any system for DHS employees to 
anonymously inform supervisors of problems they face.
    We have found that when an agency has a good relationship with the 
employee representatives, a system can be put in place where 
supervisors and employees can work together to do the best possible 
job. During the Clinton administration, Labor-Management Partnerships 
were developed, and both supervisors and employees have told me that 
the partnerships made a difference in the work environment and in the 
dissemination of necessary information. The NTEU-represented legacy 
that became part of CBP, the U.S. Customs Service, had a very positive 
experience with Labor -Management partnership in the 1990s. NTEU is 
working with the administration and with Congress to have these 
partnerships reinstituted government wide.

    Question 3.: In July 2008, the Transportation Security 
Administration awarded a contract worth $1.2 billion to Lockheed Martin 
Corporation to develop and manage human resources management for the 
agency. Do you believe these deliverables will aide the TSA workforce? 
If so, how? If not, why not.
    NTEU answer: You may recall that when TSA announced the Lockheed 
Martin contract, NTEU asked whether that money might be better spent 
hiring more TSOs. Ever since Lockheed Martin has taken over Human 
Resources functions, we have heard many and various complaints. The 
biggest complaint is that there is never any person to talk to about 
missing paychecks, erroneous leave balances, denial of Family and 
Medical Leave, denial of workman's compensation, and other problems. 
Problems are never resolved. We have several people who were promoted, 
and four months later, still can't get their pay raise. We believe that 
the contract should be terminated.

     Questions from the Honorable Christopher P. Carney, Chairman, 
       Subcommittee on Management, Investigations, and Oversight:

    Question 1.: It has been noted by some, that the Department of 
Homeland Security's intention to move all of its employees to a pay-
for-performance system caused great angst among employees and 
contributed to low employee morale.
        <bullet> Now that this system has been abandoned, what steps do 
        you think the Department can take today and the months ahead to 
        improve morale?
    NTEU answer: DHS has to work with its supervisors to stress the 
importance of workplace respect. The present atmosphere lacks respect, 
and this is something we hope will change under Secretary Napolitano's 
leadership. To help achieve this goal, NTEU supports the 
reestablishment of partnership. On October 1, 1993, President Clinton 
issued Executive Order 12871, establishing labor-management 
partnerships in the federal government. That executive order was 
rescinded by President Bush soon after he assumed office. NTEU believes 
now is the time to re-establish labor-management partnerships in the 
federal government. This step is likely to improve workplace morale.
    When labor-management partnerships were in effect during the 1990s, 
there was a climate of recognition that the sometimes adversarial 
labor-management relationships in federal agencies could be transformed 
into problem solving relationships. Partnerships were made up of 
managers, employees, and employees' representatives who had insights 
into designing and implementing the processes necessary to more 
efficiently achieve agencies' missions. Partnership councils functioned 
in federal agencies throughout the country and in cooperation with a 
National Partnership Council. The purpose of the partnerships was to 
identify problems and craft solutions to better serve the taxpayer, not 
to provide for co-management. Often, issues within federal agencies 
were resolved before they became major obstacles or points of 
contention in the labor-management arena. Through partnerships came a 
recognition that employees and their union representatives added value 
to the decision making process.
    In its December 2000 report to Congress, the Office of Personnel 
Management (OPM) found that partnerships between labor and management 
``have helped cut costs, enhance productivity, and improve customer 
service at agencies across Government.'' It is time to bring the 
creative ideas of management and labor together again in government, 
and improve moral.
    The employees of DHS overwhelmingly believe in what they do and 
regard it as an important part of our nation's safety. Unfortunately, 
that is about the only good news. In the most recent public survey 
results, 30% of the U.S. Customs and Border Protection (CBP) employees 
responded that they were satisfied with their involvement in workplace 
decisions. A mere 27.1% believe their leaders generate high levels of 
motivation and commitment. At the Transportation Security 
Administration (TSA), only 20.9% of the employees believe that 
promotions are based on merit. Only 22.7% felt that creativity and 
innovation are rewarded, and this is in a position where we need to 
reward innovative thinking.
    One of the most frustrating things I hear is that if only 
management had more flexibility, they could recruit and retain 
employees much easier. It is frustrating to me, because there are 
already flexibilities available to managers that they rarely use. With 
greater use of these flexibilities such as the Student Loan repayment 
Program, recruitment and retention bonuses, relocation assistance, and 
the litany of government flexibilities, I believe we can attract more 
workers and keep them. I understand that in many cases, agency budgets 
have been slashed so significantly that there is no money for these 
flexibilities. May be we need to consider mandating that funds be 
allocated to these accounts so that they can really be used. These are 
ways to improve hiring in the federal government that do not involve 
demolishing the merit system, yet still address serious morale issues 
at CBP and TSA.
    Finally, NTEU again urges the Committee to repeal Title 5, Chapter 
97 that authorized the establishment of a new DHS human resource 
management system. This too will lead to increased employee morale. 
Last year Congress approved a FY 2009 DHS Appropriations bill that 
prohibits the department from using any funds to implement a new 
personnel system for rank and file employees. Because of this 
Congressional prohibition, in October 2008, DHS abandoned efforts to 
implement all regulations promulgated under Title 5, Chapter 97, but 
the authorization of this program remains in effect. The House has 
voted once already to repeal the authorization of Title 5, Chapter 97. 
NTUE urges Congress to enact the Chapter 97 repeal this year
        <bullet> Please also explain your perception of how employee 
        morale contributes to the Department's overall effectiveness.
    NTEU answer: The Government Accountability Office (GAO) recently 
examined this in a GAO report. According to GAO, ``At seven of the 
eight major ports we visited, officers and managers told us that not 
having sufficient staff contributes to morale problems, fatigue, lack 
of backup support and safety issues when officers inspect travelers--
increasing the potential that terrorists, inadmissible travelers and 
illicit goods could enter the country.'' (See GAO-08-219, page 7)
    ``Due to staffing shortages, ports of entry rely on overtime to 
accomplish their inspection responsibilities. Double shifts can result 
in officer fatigue. . .officer fatigue caused by excessive overtime 
negatively affected inspections at ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in primary passenger processing lanes in order to keep 
lanes open, in part to minimize traveler wait times. Further evidence 
of fatigue came from officers who said that CBP officers call in sick 
due to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.'' (See GAO-08-
219 page 7)
    The GAO analysis demonstrates the important link between morale and 
agency effectiveness. Further, I direct you to recent stories from the 
Denver airport, where TSOs told reporters that they are so worried 
about their problems with management that they can't focus on the 
screening.

    Question 2.: During Secretary Napolitano's confirmation hearing, 
she acknowledged the necessity of improving the morale of the 
Department of Homeland Security workforce. To your knowledge, what 
initiatives are underway or are planned to facilitate improvement in 
how DHS employees view the department's performance of its mission and 
the Department as an employer?
    NTEU answer: On March 27, 2009, Secretary Napolitano unveiled the 
DHS Efficiency review initiative a program to improve efficiency and 
streamline decision-making through agency-wide initiatives. As part of 
the initiative, the Secretary has charged all DHS components to solicit 
ideas from their employees to help generate greater new efficiencies, 
accountability, and transparency in how DHS conducts business.
    CBP has informed NTEU that it will be soliciting employee input on 
how CBP can reduce costs, streamline operations, eliminate duplication, 
and improve services while also improving coordination and the sharing 
of assets across DHS. Employees will have the opportunity to assist 
Secretary Napolitano's Efficiency review to accessing a link provided 
by an agency e-mail and responding to the survey between March 30 and 
April 10, 2009. Employees will be asked to briefly explain their idea 
to make CBP more efficient and why it should be implemented.
    To the best of NTEU'S knowledge, this is the first time since the 
agency stood up that the DHS Secretary has directly asked rank and file 
employees for their input and ideas, and this is a positive 
development.

    Question 3.: Many highlight the need for leadership and high 
quality senior executives at the Department of Homeland Security. In 
your opinion, how can the Department attract high quality senior 
executives?
    NTEU answer: The Department can attract high quality senior 
executives by offering a place where their abilities will be utilized 
and appreciated, and where they are paid commensurate with their 
responsibilities.

    Question 4.: How can the Department of Homeland Security alleviate 
the effects of the expected large-scale retirements in the coming 
years? How can the Department generate interest and recruit its next 
leaders? Does the Department adequately develop those in the senior GS 
ladder--the 14's and 15's? What does it mean to properly develop those 
levels of leadership?
    NTEU answer: The answer to alleviating the effects of the expected 
large-scale retirements is to provide opportunities for advancement in 
the middle ranks and to hire more people.

    Question 5.: Throughout reorganizations and recruitment challenges 
to ill-equipped office spaces and limited resources, the men and women 
that make up the Department of Homeland Security have continued to put 
their best foot forward, often times with little to no recognition. 
They deserve to be honored for their tireless work and sacrifices.
        <bullet> How can the Department focus on improving awards and 
        recognition initiatives for its employees?
    NTEU answer: NTEU has an ongoing issue with CBP regarding awards 
and recognition. In 2004, CBP threw out its NTEU-negotiated awards and 
recognition program and unilaterally imposed its own awards system. In 
2005, NTEU received a favorable arbitration result that concluded that 
CBP had unlawfully terminated the negotiated Article 17 Awards and 
Recognition procedures when it unilaterally imposed its own awards 
system. The arbitrator ordered CBP to return to the prior joint awards 
process where awards are determined by a joint union management 
committee, and to rerun the fiscal year 2005 awards process using the 
Article 17 procedures. Once again, however, CBP has delayed the 
ultimate resolution of this issue by appealing the arbitrator's 
decision to the FLRA. In its appeal CBP argued that the award should be 
overturned because it allows employees to grieve CBP's award decisions. 
Yet CBP has acknowledged that employees would also be permitted to file 
grievances under the Agency's unlawfully implemented award process. 
Inexplicably, CBP asked the Authority to overturn the arbitrator's 
decision in order to improve employee morale.
    Undeterred by this 2006 arbitration decision, CBP continues to use 
the same discredited, secretive and illegal performance awards policy 
to reward employee performance. As a protective measure, NTEU continues 
to file grievances and invoke arbitration just as was done for fiscal 
year 2005 while we enter a third year waiting for the Federal Labor 
Relations Authority to sustain our arbitration win.
    A way to greatly improve the Agency's improve the awards and 
recognition initiatives for its CBP employees would be for CBP to 
abandon its discredited, illegal, and secretive unilateral awards 
system and reinstate the negotiated joint awards process.

    Question 6.: During the effort to implement a new personnel system, 
MaxHR, for the department, DHS reported to Congress that it had 
extended contracts to Northrop Grumman Information Technology (NGIT) 
for services related to program management; pay, performance, and 
classification; and training, communications, and organizational change 
management, and labor relations. The contracts were worth almost $3 
million and more than $16 million, respectively.
        <bullet> Are any of you aware of specific deliverables from 
        Northrop Grumman of these some $19 million total contracts for 
        each of the areas stated (e.g., pay, performance, 
        classification)?
    NTEU answer: No.
        <bullet> How are these deliverables being utilized by the 
        department, especially in the wake of DHS's decision to abandon 
        implementation of the new personnel system?
    NTEU answer: I am not aware of and deliverable being utilized by 
the department. NTEU believes that the Department wasted millions of 
taxpayer dollars in funding these contracts.

    Question 7.: From your vantage point, what are the staffing needs 
in senior career executive positions to the front lines and how many 
employees would make the Department of Homeland Security ``whole?''
    NTEU answer: NTEU does not know the staffing needs for senior 
executive positions, however, CBP's own staffing allocation model 
concluded that the agency needs 1,600 to 4,000 additional CBP Officers 
and CBP Agriculture Specialist at the 327 air, land, and sea ports of 
entry, a boost of 7 to 25 percent.
        What impact would full staffing have in terms of time for 
        training and development?
    NTEU answer: Staffing shortages force managers to choose between 
performing port operations and providing training. In these instances, 
it is the training that is sacrificed. Without full staffing, the 
success of the mission is compromised.
    According to GAO, ``Vulnerabilities in traveler inspections are 
created when new officers do not receive required training. For 
example, new officers who received as little as 2 weeks of on-the-job 
training rather than the recommended 12 weeks told us that they needed 
more training before inspecting travelers. In our July 2003 report. . 
.we found that the ports that graded their officers least prepared to 
carry out traveler inspections were among the ports that provided the 
least amount of on-the-job training.'' (See GAO-08-219, page 40) Also, 
``vulnerabilities in traveler inspections occurred when officers did 
not receive cross-training before rotating to new inspection areas. 
Although CBP's training policy call for no officer to be placed in an 
area without receiving the proper cross-training module, officers and 
supervisors at ports of entry we visited told us that officers are 
placed in situations for which they are not trained.'' (See GAO-08-219, 
page 37.)
    NTEU believes that full staffing at CBP air, land and sea ports of 
entry, in terms of time for training and development, would mitigate 
these vulnerabilities in traveler inspections.

    Question 8.: To your knowledge, to what extent have your members 
participated in the graduate education programs for Department of 
Homeland Security employees? Are the Department's employees on 
individual development plans to provide for continuous training and 
what types of training are essential for all employees, regardless of 
position?
    NTEU answer: Clearly, training has not been a priority for the last 
eight years, More money will have to be appropriated to make up for 
that lost time. As for individual development plans, the success of 
such plans depends on the ability of supervisor and employee to both 
and understand the expectations and resources necessary to achieve the 
mutual goals. We believe that the leadership of Secretary Napolitano in 
this area will result in measurable changes in this area.

                                 <all>

</pre></body></html>
